                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                              Special Review of the 

                                       Keystone XL Pipeline Permit Process


                                           Report Number AUD/SI-12-28, February 2012




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                        UNCLASSIFIED





                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                                        UNCLASSIFIED

                                  UNCLASSIFIED





Acronyms
EIS        environmental impact statement
FOIA       Freedom of Information Act
IPS        Office of Information Programs and Services
NEPA       National Environmental Policy Act
OIG        Office of Inspector General




                                  UNCLASSIFIED

                                                         UNCLASSIFIED



                                                       Table of Contents 

Section                                                                                                                                 Page

Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................4 


Objective……. .................................................................................................................................9 


Review Results...............................................................................................................................10 

      Finding A. Selection of a Contractor for the Environmental Impact Statement ...............10 

      Finding B. Views of Other Federal Agencies on the Environmental Impact Statement .14 

      Finding C. Relationship Between Cardno Entrix and TransCanada.................................22 

      Finding D. The Pipeline Hazardous Materials and Safety Administration Permit ...........27 

      Finding E. Communications Between the Department and TransCanada,
      the Canadian Government, and Pipeline Proponents .........................................................29 

      Finding F. Department Compliance With Federal Disclosure Requirements ..................33 

      Finding G. Department Fulfillment of Freedom of Information Act Requests ................35 



List of Recommendations ..............................................................................................................39 


Appendices
      A. Scope and Methodology................................................................................................40 

      B. Letter From Members of Congress ...............................................................................42 

      C. Consultation and Permit Requirements With Some Cooperating Federal Agencies for 

      the Proposed Keystone XL Project ...................................................................................46 

      D. Department Fulfillment of Freedom of Information Act Requests...............................48 

      E. Bureau of Oceans and International Environmental and Scientific Affairs and Office of 

      the Legal Adviser Response...............................................................................................51 





                                                         UNCLASSIFIED

                                        UNCLASSIFIED


                                    Executive Summary


         On September 19, 2008, TransCanada submitted a Presidential permit application to the
Department of State (Department) for the Keystone XL oil pipeline. Keystone XL is a proposed
1,700-mile pipeline connecting Alberta, Canada, to the U.S. Gulf Coast. The Department is
responsible for reviewing such applications for cross-border oil pipelines by virtue of the
Presidential delegation of authority contained in Executive Order 13337 and deciding whether
issuance of a requested permit “would serve the national interest.” As part of this review process
for Keystone XL, the Department prepared an environmental impact statement (EIS) to inform
the overall “national interest determination.” The Department uses third-party contractors to
assist in the preparation of the EIS. In 2006, the Department consulted with the Council on
Environmental Quality and agreed that the Federal Energy Regulatory Commission’s process for
using third-party contractors to prepare environmental documents was the best model for the
Department to follow.

        The EIS process includes evaluation of the proposed Federal action and reasonable
alternatives to the proposed action; solicitation of input from organizations and individuals who
could potentially be affected; and the presentation of direct, indirect, and cumulative
environmental impacts for public review and comment. On August 26, 2011, the Department
issued a final EIS and subsequently entered into the broader national interest determination
period for Keystone XL. The national interest determination involves consideration of many
factors, such as energy security; environmental, cultural, and economic impacts; and foreign
policy.

       The Department of State, Office of Inspector General (OIG), conducted this special
review at the request of several members of Congress in an October 26, 2011, letter (see
Appendix B). The members asked that OIG “launch an investigation into the State Department’s
handling of the Environmental Impact Statement (EIS) and National Interest Determination
(NID) for TransCanada Corporation’s proposed Keystone XL pipeline.” OIG’s objective was to
determine to what extent the Department complied with Federal laws and regulations relating to
the Keystone XL oil pipeline Presidential permit process. In conducting this review OIG asked
seven researchable questions. Those questions, and OIGs conclusions, are as follows:

       (1) To what extent and in what manner did TransCanada improperly influence the
           Department in the selection of a contractor for the EIS?

        OIG found no evidence that TransCanada (the applicant) had improperly influenced the
Department’s selection of Cardno Entrix as the Keystone XL EIS third-party contractor. The
Department followed the Federal Energy Regulatory Commission’s third-party contracting
process, from reviewing, editing, and approving the draft request for proposal to independently
reviewing proposals and selecting a contractor. This process allows the applicant to influence
the selection of the EIS contractor by (1) deciding which contractors will receive the request for
proposal, (2) reviewing all proposals received in response to the request for proposal, and (3)
forwarding to the Department the three ranked proposals to review. However, TransCanada’s
influence was minimal, given the Department’s (1) control of the language in the request for

                                             1
                                        UNCLASSIFIED
                                        UNCLASSIFIED


proposal, (2) general familiarity with the environmental contractor community, and (3)
independent review of proposals and selection of the contractor. A prime factor in the
Department’s selection of Cardno Entrix was the Department’s previous experiences using the
company as a third-party contractor for other EISs.

       (2) To what extent did the Department’s final EIS fully incorporate the views and
           concerns of Federal agencies with expertise, such as the Environmental Protection
           Agency, in relation to alternatives and mitigation, pipeline safety, and environmental
           risks?

       The Department’s final EIS for Keystone XL generally addressed and incorporated the
views and concerns of Federal agencies with expertise in relation to alternatives and mitigation,
pipeline safety, and environmental risks from this project. However, some concerns, such as the
manner in which alternative routes were considered in the Department’s EIS, were not
completely incorporated. OIG also determined that the Department’s limited technical
resources, expertise, and experience impacted the implementation of the NEPA process.

       (3) To what extent is there a contractual or financial relationship between Cardno Entrix
           and TransCanada beyond Keystone XL, and does Cardno Entrix have a contract or
           agreement with TransCanada wherein Cardno Entrix would provide services, such as
           spill response, for Keystone XL? Furthermore, did the Department employees who
           selected Cardno Entrix have personal financial conflicts of interest?

        Cardno Entrix has been the third-party EIS contractor for two Federal Energy Regulatory
Commission pipeline reviews and two Department pipeline reviews for which TransCanada or
an affiliate was the permit applicant. In addition, Cardno Entrix has also received a minimal
amount of contract work on two corporate projects that Cardno Entrix has been associated with
for many years but that were bought by TransCanada in 2007 and 2008. OIG determined that
these relationships did not present a conflict of interest because they are not directly related to
the Keystone XL project and are either federally controlled relationships or minimal financial
relationships that would not “impair the contractor’s objectivity in performing the contract work”
or “result in an unfair competitive advantage to a contractor.” In addition, no agreements
between Cardno Entrix and TransCanada for future services for Keystone XL were found.
However, the Department did not require the applicant to review and certify Cardno Entrix’s
organizational conflict of interest statement, as required by the Federal Energy Regulatory
Commission’s Handbook, nor did the Department perform any independent inquiry to verify
Cardno Entrix’s organizational conflict of interest statements. Finally, a preliminary inquiry
determined that there were no personal financial conflicts of interest of those Department
employees who were personally and substantially involved.

       (4) To what extent did the Department violate its role as an unbiased oversight agency by
           advising TransCanada to withdraw their permit request to operate the pipeline at
           higher pressures with the reassurance that TransCanada could apply for the permit at
           a later date through a less scrutinized and less transparent process?




                                             2
                                        UNCLASSIFIED
                                        UNCLASSIFIED


         OIG determined that the Department did not violate its role as an unbiased oversight
agency. TransCanada made the decision to withdraw its special permit application, and OIG
found no evidence that the Department had assured TransCanada that it could obtain the permit
at a later date through a less scrutinized and less transparent process. OIG also found that the
Pipeline and Hazardous Materials Safety Administration, not the Department, has the statutory
authority to issue special permits as they relate to pipeline safety and that the Department
became actively involved in discussing the special permit conditions only after TransCanada
withdrew its special permit application because the Department wanted to enhance the safety of
the pipeline. After TransCanada withdrew the application, the Department worked with the
Pipeline and Hazardous Materials Safety Administration and TransCanada to adopt 57 special
conditions designed to increase Keystone XL’s safety.

       (5) To what extent did communication between Department officials, TransCanada, the
           Canadian Government, or proponents of Keystone XL deviate from the Department’s
           obligations under Federal law to provide an objective analysis of the project and its
           potential risks?

       OIG found no evidence that communications between Department officials,
TransCanada, the Canadian Government, proponents, and opponents of Keystone XL deviated
from the Department’s obligations under Federal law. Specifically, no records existed showing
that Department officials had made inappropriate commitments on behalf of the Department to
TransCanada or to the Canadian Government.

       (6) To what extent did the Department and all parties fully comply with the letter and
           spirit of all Federal disclosure laws and regulations in regard to Keystone XL?

        OIG determined that the Department fully complied with the general disclosure
requirements applicable to the Presidential permit and EIS processes. The Department’s notices
in the Federal Register show that the Department provided, among other things, the required
notice of its decisions to initiate an EIS and a national interest determination for Keystone XL.
The Department also announced public meetings and invited comments from the public, and it
consulted with Federal agencies, as well as with State, tribal, and local governments.

       (7) To what extent were Freedom of Information Act (FOIA) requests for materials
           related to Keystone XL timely fulfilled by the Department?

        The Department’s processing and fulfillment of Keystone XL-related FOIA requests have
been as timely as, or faster than, its processing and fulfillment of other FOIA requests of similar
complexity. Although the Department has not made a final determination on any of the
Keystone XL-related requests within the baseline statutory requirement of 20 days, the
Department has generally acknowledged requests within 20 days, assigning case numbers and
the track in which the request was to be processed and informing requestors that it is processing
the requests. OIG found that the Department has been consistent with its established processes
in processing Keystone XL requests, given the complexity and volume of the records involved.




                                             3
                                        UNCLASSIFIED
                                        UNCLASSIFIED


        OIG made the following recommendations in this report: (1) the Bureau of Oceans and
International Environmental and Scientific Affairs, in coordination with the Bureau of
Administration and the Office of the Legal Adviser, should redesign the Department’s process
for selecting third-party contractors by maximizing the Department’s control of each step and
minimizing the applicants’ role in the process; (2) the Department should fill at least one full-
time Civil Service position within the Bureau of Oceans and International Environmental and
Scientific Affairs with staff who have experience and expertise in handling National
Environmental Policy Act (NEPA) issues and the EIS process; and (3) the Bureau of Oceans and
International Environmental and Scientific Affairs, in coordination with the Bureau of
Administration and the Office of the Legal Adviser, should redesign the Department’s process
for selecting and using third-party contractors in order to improve the Department’s
organizational conflicts of interest screening process.

      In January 2012, OIG provided a draft of this report to the Department. The Bureau of
Oceans and International Environmental and Scientific Affairs and the Office of the Legal
Adviser agreed with the three recommendations (see Appendix E).

                                          Background
       In an October 26, 2011, letter to the Department, members of Congress requested that the
OIG “launch an investigation into the State Department’s handling of the Environmental Impact
Statement (EIS) and National Interest Determination (NID) for TransCanada Corporation’s
proposed Keystone XL pipeline.” The letter is included in its entirety in Appendix B.

The Presidential Permits Process and Applicable Laws and Regulations

       Executive permission is required “for the construction, connection, operation, or
maintenance, at the borders of the United States, of facilities for the exportation or importation of
petroleum, petroleum products, coal, or other fuels to or from a foreign country.”1 Permission is
granted through a Presidential permit. By order of the President, the Department has been
designated to process permit applications for these facilities.

         The Department is responsible for reviewing such applications for cross-border oil
pipelines under the Presidential delegation of authority contained in Executive Order 13337 and
deciding whether issuance of a requested permit “would serve the national interest.” Upon
receiving an application, the Secretary of State must request the views of the Secretary of
Defense, the Attorney General, the Secretary of the Interior, the Secretary of Commerce, the
Secretary of Transportation, the Secretary of Energy, the Secretary of Homeland Security, and
the Administrator of the Environmental Protection Agency. The Secretary may also consult with
State, tribal, and local government officials and foreign governments. Moreover, the Secretary
may publish a notice in the Federal Register regarding the Department’s receipt of an application
to receive public comments. After considering comments, the Secretary will determine whether
to approve or deny a permit based on whether issuance of the permit would serve the national
interest. In preparing the national interest determination, the Secretary considers a broad array of

1
    Executive Order 13337.

                                             4
                                        UNCLASSIFIED
                                                UNCLASSIFIED


factors, including the proposed project’s impact on economics, energy security, foreign policy,
the environment, and culture. The Secretary must notify the Federal officials listed in this
paragraph of the proposed determination (that is, approval or denial). The Secretary then issues
or denies the permit in accordance with the national interest determination unless, within 15 days
of notifying the required Federal officials, an official notifies the Secretary that he or she
disagrees with the determination and requests that the Secretary refer the application to the
President. In the event of such a request, the Secretary consults with the requesting official and,
if necessary, refers the application to the President for a final decision.

        As part of this review process for Keystone XL, the Department prepared an EIS to
inform the overall national interest determination. NEPA 2 and the Council on Environmental
Quality’s regulations for implementing NEPA3 prescribe the process for completing an EIS. The
Executive Order 13337 process, NEPA, and the Council on Environmental Quality regulations
are discussed throughout this report.4

Keystone XL Pipeline Project

        On September 19, 2008, TransCanada submitted an application for a Presidential permit
to the Department for the Keystone XL oil pipeline. Keystone XL is a proposed 1,700-mile
pipeline connecting the tar sands region5 of Alberta, Canada, to the U.S. Gulf Coast. Keystone
XL would cross the United States-Canada border in Morgan, Montana, and continue through the
states of South Dakota and Nebraska. In Nebraska, Keystone XL will connect with
TransCanada’s existing Keystone I pipeline, which crosses through Kansas and Oklahoma.
Keystone XL would then continue from Cushing, Oklahoma, to Houston and Port Arthur, Texas.
The proposed Keystone XL route is shown in Figure 1.




2
  The National Environmental Policy Act of 1969, as amended (Pub. L. No. 91-190, 42 U.S.C. §§ 4321-4347, Jan.1, 

1970, as amended by Pub. L. No. 94-52, July 3, 1975, Pub. L. No. 94-83, Aug. 9, 1975, and Pub. L. No. 97-258 §

4(b), Sept. 13, 1982).

3
  40 CFR §§ 1500-1508. 

4
  The Council on Environmental Quality, which was created by NEPA, is a White House office that coordinates 

Federal environmental efforts and works closely with Federal agencies in the development of environmental policies 

and initiatives. The Council also oversees Federal agency implementation of the NEPA process and acts as a referee 

when agencies disagree over the adequacy of environmental assessments. 

5
  Tar sands are oil sands that are a combination of clay, sand, water, and bitumen (a material similar to soft asphalt). 


                                                     5
                                                UNCLASSIFIED
                                            UNCLASSIFIED


Figure 1. Proposed Keystone XL Route




Source: Department of State, Executive Summary, Final Environmental
Impact Statement for the Proposed Keystone XL Project, Aug. 26, 2011.




                                                 6
                                            UNCLASSIFIED
                                             UNCLASSIFIED


        The Department announced its receipt of the Keystone XL permit application in the
Federal Register on November 4, 2008,6 and formally initiated the EIS process by publishing its
notice of intent to prepare an EIS on February 10, 2009.7 After 2 1/2 years of conducting the EIS
process, including receipt of public and interagency comments on two published drafts of an EIS,
on August 26, 2011, the Department issued a final EIS and subsequently entered the national
interest determination period. The Department held a series of public hearings from September
26 through October 7, 2011, to receive public comments for the broader national interest
determination.

        On November 10, 2011, the Department announced that it could not make a national
interest determination regarding the permit application and would prepare a supplemental EIS
because of concerns regarding the proposed route through the Sand Hills area of Nebraska. The
Department called for an assessment of alternative pipeline routes that avoided the uniquely
sensitive terrain of the Sand Hills in Nebraska and estimated that it could complete the necessary
review to make a decision by the first quarter of 2013. The State of Nebraska and TransCanada
agreed with the estimated timeline.

        On December 23, 2011, Congress passed the Temporary Payroll Tax Cut Continuation
Act of 2011 (Act), which included a provision requiring that “not later than 60 days after the
enactment of this Act, the President, acting through the Secretary of State, shall grant a permit
under Executive Order 13337 . . . for the Keystone XL pipeline” unless “the President
determines that the Keystone XL pipeline would not serve the national interest.” On January 18,
2012, the Department recommended to the President that the Presidential permit for Keystone
XL be denied. The President concurred with the Department’s recommendation, which was
predicated on the fact that the Act did not provide the Department with sufficient time to obtain
the information necessary to assess whether the project in its current state is in the national
interest. The President directed the Secretary of State to deny the permit and submit to Congress
the report required by the Act. Keystone XL’s permit application history is chronicled in
Table 1.

Table 1. Keystone XL Timeline
           Date                                               Action

September 19, 2008         TransCanada applies for Keystone XL Presidential permit

April 16, 2010             Department issues draft EIS

April 22, 2011             Department issues supplemental draft EIS

August 26, 2011            Department issues final EIS

January 18, 2012           President Obama denies Keystone XL permit at Department’s recommendation.




6
    73 Federal Register 65713.
7
    74 Federal Register 6687.

                                                  7
                                             UNCLASSIFIED
                                               UNCLASSIFIED



Department Bureaus and Offices Responsible for Keystone XL

        The Secretary of State, appointed by the President with the advice and consent of the
Senate, is the President’s chief foreign affairs adviser. According to the Foreign Affairs
Manual,8 “The Secretary has responsibilities, by virtue of law or Executive order, with respect to
matters such as international educational and cultural affairs, information activities, foreign
assistance, food for peace, arms control and disarmament, supervision of programs authorized by
the Peace Corps Act, social science research, immigration, and refugee assistance.” The
Secretary is also responsible for the overall direction, coordination, and supervision of
interdepartmental activities of the U.S. Government abroad.

        The Deputy Secretary of State is the Department’s second-ranking official and its senior
career diplomat. The Assistant Secretaries of the geographic bureaus and offices advise the
Deputy Secretary and guide the operation of the U.S. diplomatic missions within their respective
regional jurisdictions.

        The Assistant Secretary for Economic and Business Affairs formulates and implements
international economic policies aimed at protecting and advancing U.S. economic, political, and
security interests by effective management of U.S. bilateral and multilateral economic relations
through negotiated agreements and other initiatives in the fields of trade, energy, finance,
development, transportation, communications, food, and resources policy. The Bureau of
Economic and Business Affairs led the Keystone XL national interest determination process.

        The Bureau of Oceans and International Environmental and Scientific Affairs is
responsible for matters relating to oceans, environmental, polar, scientific, fisheries, wildlife,
conservation, and natural resources and health affairs. This bureau was responsible for
overseeing the NEPA process and the EIS for the Keystone XL pipeline permit. The bureau was
also responsible for coordinating the inter-agency process with the Federal agencies involved in
the EIS process.

        The Office of the Legal Adviser advises and represents the bureaus and missions of the
Department; the Secretary and senior leadership; and, through the Secretary, the Executive
Branch on all legal and legal policy issues arising in connection with U.S. foreign policy and the
work of the Department. The legal advisers worked closely with the Bureau of Oceans and
International Environmental and Scientific Affairs and the Bureau for Economic Energy and
Business Affairs throughout the EIS and the national interest determination processes.

        The Bureau of Western Hemisphere Affairs implements U.S. foreign policy and
promotes U.S. interests in the Western Hemisphere, as well as advises the Under Secretary for
Political Affairs. The bureau was not involved in the EIS process, but it played a more
prominent role when the Department transitioned into the national interest determination process.
The bureau attended the weekly national interest determination task force meetings and had the
lead in the foreign policy section. The American Embassy and Consulate General Calgary in


8
    Foreign Affairs Manual, 1 FAM 021.1, “Responsibilities.”

                                                    8
                                               UNCLASSIFIED
                                       UNCLASSIFIED


Canada also did not have any decision role in the Keystone XL pipeline’s Presidential permit
request, but they stayed abreast of the progress and provided information to decision makers.

                                          Objective
        OIG undertook this special review to address the October 2011 Congressional request.
The objective was to determine to what extent the Department complied with Federal laws and
regulations relating to the Keystone XL permit process.

       OIG asked seven researchable questions to address the special review’s objective:

   1.	 To what extent and in what manner did TransCanada improperly influence the 

       Department in the selection of a contractor for the EIS?


   2.	 To what extent did the Department’s final EIS fully incorporate the views and concerns
       of Federal agencies with expertise, such as the Environmental Protection Agency, in
       relation to alternatives and mitigation, pipeline safety, and environmental risks?

   3.	 To what extent is there a contractual or financial relationship between Cardno Entrix and
       TransCanada beyond Keystone XL, and does Cardno Entrix have a contract or agreement
       with TransCanada wherein Cardno Entrix would provide services, such as spill response,
       for Keystone XL? Furthermore, did the Department employees who selected Cardno
       Entrix have personal financial conflicts of interest?

   4.	 To what extent did the Department violate its role as an unbiased oversight agency by
       advising TransCanada to withdraw their permit request to operate the pipeline at higher
       pressures with the reassurance that TransCanada could apply for the permit at a later date
       through a less scrutinized and less transparent process?

   5.	 To what extent did communication between Department officials, TransCanada, the
       Canadian Government, or proponents of Keystone XL deviate from the Department’s
       obligations under Federal law to provide an objective analysis of the project and its
       potential risks?

   6.	 To what extent did the Department and all parties fully comply with the letter and spirit
       of all Federal disclosure laws and regulations in regard to Keystone XL?

   7.	 To what extent were FOIA requests for materials related to Keystone XL timely fulfilled
       by the Department?

       OIG’s responses to each question are presented in the findings sections.




                                            9
                                       UNCLASSIFIED
                                       UNCLASSIFIED



                                       Review Results 


Finding A. Selection of a Contractor for the Environmental Impact
Statement
        OIG found no evidence that TransCanada improperly influenced the Department’s
selection of Cardno Entrix as the Keystone XL EIS third-party contractor. The Department
followed the Federal Energy Regulatory Commission’s third-party contracting process, from
reviewing, editing, and approving the draft request for proposal to independently reviewing
proposals and selecting a contractor. This process does allow the applicant to influence the
selection of the contractor in that the applicant (1) decides which contractors will receive the
request for proposal; (2) reviews all the proposals received in response to the request for
proposal; and (3) forwards, to the Department, three ranked proposals to review. However,
TransCanada’s influence was minimal, given the Department’s (1) control of the language in the
request for proposal, (2) general familiarity with the environmental contractor community, and
(3) independent review of proposals and selection of the contractor. In the case of Keystone XL,
the Department selected Cardno Entrix without any improper influence from TransCanada and in
accordance with established third-party contracting procedures. A prime factor in the
Department’s selection of Cardno Entrix was the Department’s previous experience in using the
company as a third-party contractor on other EISs.

Third-Party Contracting Process

        On April 19, 2006, TransCanada submitted an application to the Department for a
Presidential permit for Keystone I. Following initial discussions with the applicant, the
Department decided to prepare an EIS for Keystone I. Department regulations indicate that an
environmental assessment rather than an EIS is typically appropriate for the initial review of a
pipeline permit application, and, prior to the Keystone I application, the Department had
prepared only environmental assessments for such applications. As a result, the Department did
not have established procedures or guidance for issuing an EIS contract. Therefore, Department
officials researched EIS contracting procedures used throughout the Federal Government. The
Department and the Council on Environmental Quality agreed that the Federal Energy
Regulatory Commission’s process for using third-party contractors to prepare environmental
documents was the best option for the Department to select an EIS contractor.

        Since the Keystone I project in 2006, the Department has used the basic selection process
from the Federal Energy Regulatory Commission’s Handbook to select contractors that will help
the Department review the environmental aspects of proposed projects. According to the
Handbook, the permit applicant prepares a draft request for proposal, and this draft is reviewed
and approved by Federal Energy Regulatory Commission staff. The applicant issues the request
for proposal to contractors it has selected and screens all proposals received for technical
adequacy and organizational conflicts of interest. According to the Handbook, a proposal should
be concise and well organized. In the proposal, among other requirements, a bidder should




                                            10
                                       UNCLASSIFIED
                                       UNCLASSIFIED


             explain its understanding of the project and include a summary of its
              qualifications for the project.
            present both an overall technical approach for the preparation of the EIS and the
              approach proposed for individual technical areas and tasks.
            list key personnel with an organization chart that includes positions,
              responsibilities, and reporting relationships.
            note where the work will be conducted and where each key person and
              subcontractor presently reside.
           	 provide the proposed mechanisms for communication, reporting, technical
              direction and control, cost control, schedule control, quality control, quality
              assurance, and control of subcontractors.
            describe prior experience in completing similar NEPA compliance projects,
              particularly pipeline construction projects or other linear facility projects.
            emphasize prior work experience with the Federal Energy Regulatory
              Commission, state agencies, and the geographical areas of study.
            submit a proposed schedule for completing the major work tasks specified in the
              request for proposal.
            list references for three successfully completed or in-progress projects of a similar
              nature.
            identify possible conflicts of interest that may require investigation by Federal
              Energy Regulatory Commission staff.
            include résumés and a cost estimate.

        The Federal Energy Regulatory Commission directs the applicant to select the three best-
qualified bidders and to rank them in their preferred order based on qualifications and cost. The
applicant provides the Federal Energy Regulatory Commission with the ranked proposals, a
written rationale for their rankings, and organizational conflict of interest statements. Federal
Energy Regulatory Commission staff conduct an independent review of the three proposals and
make the final selection based on technical, managerial, and personnel merits. For example,
bidders are evaluated on their (1) familiarity with environmental regulations and procedures for
satisfying NEPA-related requirements; (2) experience in managing major NEPA reviews and
preparing NEPA documentation for pipelines or other linear facilities; (3) ability to assign and
commit key personnel to a project and their experience, education, and location; and (4)
demonstrated ability to meet schedule requirements.

       According to the Federal Energy Regulatory Commission’s third-party contracting
process, the Federal Energy Regulatory Commission then selects the contractor, and the
applicant is responsible for awarding the contract and paying the contractor for its work.
However, Federal Energy Regulatory Commission staff direct the contractor’s preparation of the
EIS, and the applicant has no control over the activities of the contractor.

        In 2006, the Department used the Federal Energy Regulatory Commission’s process to
select the Keystone I EIS contractor. In that case, TransCanada provided the Department with
proposals from Tetra Tech, Cardno Entrix, and ERM, and it ranked Tetra Tech as its first choice.
However, Department officials, after evaluating the proposals, stated that they were “impressed”


                                            11
                                       UNCLASSIFIED
                                               UNCLASSIFIED


with Cardno Entrix: “The group concluded that the team and the company as a whole offer the
most breadth and depth of experience directly relevant to [the Keystone I EIS].” The
Department also sought the opinion of officials from the Federal Energy Regulatory
Commission, the Department of the Interior’s Bureau of Land Management, the Department of
Energy, and the U.S. Army Corps of Engineers, and those officials agreed that Cardno Entrix
was the best choice. The Department independently selected Cardno Entrix as the Keystone I
EIS contractor.9

The Department’s EIS Contractor Selection Process for Keystone XL

         The Keystone XL EIS contractor selection process began when TransCanada provided
the Department with a draft request for proposal. Department officials revised the draft, and
TransCanada issued the final request for proposal on November 14, 2008, to nine companies it
selected. Four companies submitted proposals in response to the request, and TransCanada
officials evaluated the proposals and interviewed the bidders. Based on its review and
interviews, TransCanada forwarded three of the four proposals to the Department, together with
a list of all of the contractors to which it had sent the request for proposal. TransCanada noted in
its analysis of the proposals that only three bidders were “deemed technically qualified to
perform the required services and were ranked in . . . order.” The bidders and their rankings
were (1) Cardno Entrix, (2) Tetra Tech, and (3) TRC Environmental Corporation.

        Department’s Decision To Choose Cardno Entrix

        Department officials analyzed various factors, including the experience of the companies
and key team members and on how well the proposals matched the requirements in the request
for proposal. The Department’s analysis of the proposals noted that “two out of three bidders
failed to conform their bids to the terms of the RFP [request for proposal]” and that “Entrix’s
team offered the most in-depth experience that is directly applicable to this project.” The
analysis further stated, “Entrix has a prior track record of experience with linear projects, has put
together a team with relevant experience, . . . and provides the support and resources that [the
Department of] State needs to complete its NEPA responsibilities in a timely fashion.” OIG
found that these merits match the selection criteria listed in the Federal Energy Regulatory
Commission Handbook. In addition to Department officials, the Bureau of Land Management
and the Montana Department of Environmental Quality reviewed the proposals. The group of
Department and other agency officials agreed that Cardno Entrix was the best company to
conduct the Keystone XL EIS.

       OIG interviewed Department officials regarding their selection of Cardno Entrix as the
Keystone XL EIS contractor, and the reasons cited for their choice included the good working
experience they had had with the company on the Keystone I EIS and the Alberta Clipper EIS.10

9
  The Department granted TransCanada a permit for Keystone I on March 11, 2008.
10
   Enbridge, a Canadian energy company, applied for a Presidential permit for an international crude oil pipeline in
May 2007. The pipeline would be constructed from Hardisty, Alberta, Canada, to Superior, Wisconsin, crossing the
United States-Canada border near Neche, North Dakota. The Department selected Cardno Entrix to conduct the EIS
for this pipeline project, which was named “Alberta Clipper,” and the Department issued a permit to Enbridge for
the pipeline on August 3, 2009.

                                                    12
                                               UNCLASSIFIED
                                              UNCLASSIFIED


The good working experience was also noted in the Department’s analysis of the Keystone XL
EIS proposals, “Entrix . . . has shown by its work on the Keystone and Alberta Clipper pipeline
projects that it is competent, flexible, and conscientious in meeting deadlines. . . ..” Department
officials did not consider TransCanada’s ranking of the contractors as a factor in making their
decision.

         When asked about the applicant’s influence on the process because it selects and ranks
three proposals for the Department to review, Department officials noted, “[The applicants] can
do that all they want, but the Department conducts its own review and makes its own decision,”
and “We don’t care who TransCanada picks.” To compare how the Federal Energy Regulatory
Commission chooses a contractor, OIG interviewed Federal Energy Regulatory Commission
officials regarding their third-party contracting process. Regarding the applicant’s selecting who
receives the request for proposal, the officials stated that they have no control over whom the
applicant chooses to send the request for proposal. The officials review the draft request for
proposal to ensure that the scope of work is sufficient, the schedule is reasonable, and the
description of the project is accurate, but the applicant is free to send the request for proposal to
any company that it chooses. The officials also stated that because the applicant is “paying the
bill,” the applicant is allowed to review the proposals and forward its top three choices, and
sometimes more, to the Federal Energy Regulatory Commission but that Federal Energy
Regulatory Commission officials independently evaluate the proposals and make the final
selection. When asked if the Federal Energy Regulatory Commission had ever been accused of
being improperly influenced by an applicant, officials stated that they did not recall that specific
criticism but that there had been questions about the applicant’s paying for the EIS contractor.11
However, the officials stated that given that this is permissible under the process, the issue of the
applicant’s paying for the EIS contractor has never become an allegation of improper influence.

        In speaking with Department officials, OIG learned that the Department is considering
changes to further limit the applicant’s role in the proposal review process. According to one
official, the Department is not considering changes to the process because there was influence
but because it understands how the appearance of the process has raised questions. The official
added, “The appearance of this . . . needs to be cleaner.” One possible change, according to the
official, would be for the Department to review all EIS proposals without input from the
applicant.

Conclusion

        TransCanada did not improperly influence the Department’s selection of Cardno Entrix
as the Keystone XL EIS contractor. However, the third-party contracting process used by the
Department to select an EIS contractor inherently gives the applicant some influence in the
process because the applicant decides which contractors receive the requests for proposal, is
allowed to review the proposals, and then identifies its preferred contractor. Any potential
appearance of improper influence can lead the American public to question the Department’s

11
  Federal Energy Regulatory Commission officials noted that applicants are willing to pay for the contractor
because it saves time and that it would take Commission staff longer to conduct the EISs. Furthermore, the current
process allows the Commission to receive assistance—the contractor does a lot of the “grunt work”—without cost to
the taxpayer.

                                                   13
                                              UNCLASSIFIED
                                       UNCLASSIFIED


independence and objectivity. Therefore, the Department should modify its third-party
contracting process to reduce the appearance of improper influence.

       Recommendation 1: OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, in coordination with the Bureau of Administration
       and the Office of the Legal Adviser, redesign the Department of State process for
       selecting third-party contractors by maximizing the Department’s control of each step
       and minimizing the applicant’s role in the process.

       Management Response: The Department agreed with the recommendation, stating that
       it will “redesign the process for using third-party contractors in the preparation of
       environmental documents.” The Department further stated that it “intends to seek input”
       from other Federal Government agencies that have “wide-ranging NEPA implementation
       experience.”

       OIG Reply: OIG considers this recommendation resolved, pending further action. The
       recommendation can be closed when OIG reviews and accepts documentation showing
       that the third-party contractor selection process has been redesigned to maximize the
       Department’s role and minimize the applicants’ role in the process.

Finding B. Views of Other Federal Agencies on the Environmental Impact
Statement
       The Department’s final EIS for Keystone XL generally addressed and incorporated the
views and concerns of Federal agencies with expertise in relation to alternatives and mitigation,
pipeline safety, and environmental risks from this project. However, some concerns, such as the
manner in which alternative routes were considered in the Department’s EIS, were not
completely incorporated. OIG also determined that the Department’s limited technical
resources, expertise, and experience impacted the implementation of the NEPA process.

The National Environmental Policy Act Process

       NEPA requires Federal agencies to assess and consider the environmental effects of their
proposed actions prior to making decisions. NEPA applies to Federal agency actions such as
Federal construction projects; plans to manage and develop federally owned lands; and Federal
agency approvals of non-Federal activities such as agency grants, licenses, and permits.
Frequently, private individuals or companies become involved in the NEPA process when they
need a permit issued by a Federal agency. When a company applies for a permit, such as for
crossing Federal lands, the Federal agency being asked to issue the permit must evaluate the
environmental effects of the permit decision. Federal agencies may require the company or the
developer to pay for the preparation of an environmental analysis, but the Federal agency
remains responsible for the scope and accuracy of the analysis. NEPA does not require the
Federal agency to select the environmentally preferable alternative or to prohibit adverse
environmental effects. However, NEPA does require the Federal agency to be informed of the
environmental consequences of its decisions.


                                            14
                                       UNCLASSIFIED
                                        UNCLASSIFIED


        Once an agency has developed a proposed action, the agency will determine whether to
pursue the path of a “categorical exclusion” or prepare an environmental assessment or an EIS.
The EIS process is a more detailed environmental review process than a categorical exclusion or
environmental assessment process under NEPA and is specifically required for any “major
federal action significantly affecting the quality of the human environment.” The EIS process
includes evaluation of the proposed agency action and reasonable alternatives of the proposed
action; solicitation of input from organizations and individuals who could potentially be affected;
and presentation and analysis of direct, indirect, and cumulative environmental impacts for
public review and comment. The basic EIS process is depicted in Figure 2.




                                             15
                                        UNCLASSIFIED
                                              UNCLASSIFIED


Figure 2. The NEPA Process for an EIS

                                  1. Agency Identifies Need for Action



                                  2. Are Environmental Effects Likely To
                                              Be Significant?

                                                                YES            


                                 3. Significant Effects May or Will Occur



                                      4. Notice of Intent To Prepare EIS



                                 5. Public Scoping and Appropriate Public
                                               Involvement



                                             6. Draft EIS Is Published



                                        7. Public Review and Comment



                                             8. Final EIS Is Published



                                               9. Record of Decision
              *Per Council on Environmental Quality regulations contained in 40 CFR § 1502.9(c),
              significant new circumstances or information relevant to environmental concerns or
              substantial changes in the proposed action that are relevant to environmental concerns
              may necessitate preparation of a supplemental EIS following either the draft or final EIS
              or the Record of Decision.


       NEPA established the Council on Environmental Quality within the Executive Office of
the President and assigned the Council on Environmental Quality the tasks of ensuring that
Federal agencies meet their obligations under NEPA and overseeing Federal agency
implementation of the NEPA process. As part of this responsibility, the Council on

                                                   16
                                              UNCLASSIFIED
                                         UNCLASSIFIED


Environmental Quality developed regulations for Federal agencies to implement NEPA. The
Department also has regulations that supplement the Council on Environmental Quality’s
regulations.

Council on Environmental Quality Regulations for Implementing NEPA

        According to Council on Environmental Quality regulations, when requested by the lead
agency (in the case of Keystone XL, the Department), any other Federal agency that has
jurisdiction by law is required to be a cooperating agency in the NEPA process. In addition, any
other Federal agency that has special expertise with respect to any environmental issue that
should be addressed in the EIS may be a cooperating agency if requested by the lead agency.

       For Keystone XL, several Federal agencies agreed to be cooperating agencies.
Additional information on the authority and consultation or permit requirements for some of the
cooperating agencies as part of the EIS process is provided in Appendix C.

       Also, according to Council on Environmental Quality regulations, after preparing a draft
EIS and before preparing a final EIS, the lead agency is required to obtain the comments of any
other Federal agency that has jurisdiction by law or expertise with respect to any environmental
impact involved or that is authorized to develop and enforce environmental standards. The lead
agency is required to allow not less than 45 days for comments on the draft EIS. If a cooperating
agency is satisfied that its views are adequately reflected in the draft EIS, it can reply that it has
no comment.

        When preparing the final EIS, the lead agency is required to assess and consider
comments received and to state its response in the final EIS by one or more of the following
ways: (1) modifying alternatives, including the proposed action; (2) developing and evaluating
alternatives not previously given serious consideration by the agency; (3) supplementing,
improving, or modifying its analyses; (4) making factual corrections; and/or (5) explaining why
the comments do not warrant further agency response, citing the sources, authorities, or reasons
that support the agency’s position and, if appropriate, indicating those circumstances that would
trigger agency reappraisal or further response. This section of the Council on Environmental
Quality’s regulations further states that all substantive comments received on the draft EIS, or
summaries where the response has been exceptionally voluminous, should be attached to the
final EIS whether or not the comment is thought to merit individual discussion by the agency in
the text of the EIS.

        Council on Environmental Quality regulations also include standards related to a lead
agency’s capability to comply with requirements in NEPA. The regulations require an agency to
be capable, in terms of personnel and other resources, of complying with the requirements
enumerated in NEPA. The agency’s compliance may include the use of other’s resources, but
the lead agency itself is required to have sufficient capability to evaluate what others do for it.
Further, the regulations require the lead agency to (1) designate a person to be responsible for
overall review of agency NEPA compliance; (2) identify methods and procedures to ensure that
environmental resources are given appropriate consideration; (3) prepare adequate EISs; and



                                              17
                                         UNCLASSIFIED
                                        UNCLASSIFIED


(4) study, develop, and describe alternatives to recommended courses of action in any proposal
that involves unresolved conflicts concerning alternative uses of available resources.

Department Regulations for Implementing NEPA

        The Department has also developed regulations that supplement the Council on
Environmental Quality’s regulations for implementing NEPA. The Department’s regulations
indicate that the Department will conduct a NEPA review that will include preparation of an
environmental assessment and/or an EIS prior to issuing a pipeline permit. For an EIS,
Department regulations state that upon publication of the draft EIS, the Department is required to
seek the views of appropriate agencies and individuals in accordance with Council on
Environmental Quality regulations. The regulations further require that any views submitted
during the comment period be considered in preparing the final EIS.

Department Incorporation of Comments From Other Federal Agencies

        Because the Department is responsible for issuing Presidential permits for cross-border
oil pipelines, the Department served as the lead Federal agency for conducting the EIS for the
proposed Keystone XL pipeline. On April 16, 2010, the Department issued a draft EIS for
public review. The public comment period for the draft EIS closed on July 2, 2010. After the
draft EIS was issued, the Department issued a supplemental EIS for public review on April 22,
2011. The public comment period for the supplemental EIS ended on June 6, 2011. The
Department issued the final EIS on August 26, 2011.

        OIG determined that the Department, as the lead agency, took several actions that
generally addressed and incorporated the views and concerns raised by other Federal agencies in
the final EIS in accordance with NEPA and Council on Environmental Quality regulations. For
example, pursuant to Council on Environmental Quality and Department regulations, the
Department provided Federal agencies opportunities to comment on both the draft EIS and the
supplemental EIS and included Federal agencies’ comments in an appendix as part of the final
EIS.
        Comments on the draft EIS were provided by the Environmental Protection Agency, the
Department of Energy, the Department of the Interior, the U.S. Army Corps of Engineers, the
Department of Commerce, the Department of Homeland Security, and the Department of the
Army. The Department of State responded in writing to those comments that were included in
the appendix to the final EIS. More specifically, the Department either (1) revised or modified
its analysis in the EIS, (2) cited a section of the EIS that already addressed or incorporated the
Federal agency’s comments, (3) provided additional information in its individual response or
consolidated response related to the Federal agency’s comments or concerns, or (4) provided
rationale as to why the Department believed the Federal agency’s comments did not warrant
further response or revision to the EIS.

       OIG determined that the Department, in addition to responding to agencies’ written
comments, also frequently consulted with other Federal agencies during the NEPA process to
help address and incorporate the agencies’ views and concerns in the EIS. Officials from other
Federal agencies stated that the Department was open to meeting with the agencies and was

                                             18
                                        UNCLASSIFIED
                                              UNCLASSIFIED


responsive in trying to address concerns that agencies raised. For example, Environmental
Protection Agency officials expressed concerns to Department officials of the need for additional
analysis in the EIS regarding the increased greenhouse gas emissions that may result from the
increased extraction of tar sands oil in Canada for Keystone XL. In response, the Department
hired a third-party contractor to conduct additional analysis, and a full life-cycle analysis of
greenhouse gas emissions was included in the final EIS.

        Environmental Protection Agency officials also had concerns related to aspects of the
pipeline safety and the tar sands oil spills evaluation that was included in the draft EIS. These
officials acknowledged that the Department had made significant efforts to address these
concerns by working together with both the Pipeline and Hazardous Materials Safety
Administration and the Environmental Protection Agency. In addition, the Department included
a number of pipeline safety provisions in the EIS as mitigation measures, including 57 special
conditions developed by the Pipeline and Hazardous Materials Safety Administration and the
Department. To also address the Environmental Protection Agency’s concerns, the Department
engaged in getting a third-party contractor to conduct an independent engineering risk analysis of
Keystone XL and to determine whether more mitigation measures were needed in the EIS for
pipeline safety and prevention of potential oil spills.

Specific Issues Regarding Incorporation of Concerns From Other Federal Agencies

        Although the Department took actions that generally addressed and incorporated the
views and concerns raised by other Federal agencies in the final EIS, some comments from the
Department of Energy’s July 2010 letter on the draft EIS were omitted from the appendix in the
final EIS. Therefore, the Department did not provide a written response to all of the comments
contained in the July 2010 letter. In addition, some concerns provided by the Department of
Energy and the Environmental Protection Agency were not completely incorporated. In
particular, these agencies commented on the lack of alternative routes and the rationale the
Department had used to exclude those routes from further evaluation in the EIS.

        Alternative Routes

        The Department’s final EIS includes a discussion of 14 major alternative routes the
Department considered and the rationale as to why it eliminated each of them from further
consideration in the EIS. All 14 alternative routes were eliminated based on technical,
economical, and environmental reasons. Five of the 14 routes were specific to concerns raised
by the public regarding the Ogallala Aquifer in the Sand Hills region. Those five routes either
minimized the pipeline length over that area or avoided the area entirely. The final EIS states
that the Department eliminated the five alternative routes from further consideration because the
Department determined them to be economically or technically impractical and infeasible.12 In
addition, the Department stated in the EIS that the alternative routes would be longer than the
proposed route and therefore would disturb more land and cross more water bodies, which the


12
  The Council on Environmental Quality guidance defines reasonable alternatives as those alternatives that are
practical or feasible from a technical and economic standpoint.

                                                   19
                                              UNCLASSIFIED
                                              UNCLASSIFIED


Department determined would not offer an overall environmental advantage over the proposed
route.

        In providing comments to the draft and supplemental EISs, the Department of Energy
and the Environmental Protection Agency expressed concern with the Department’s rationale for
excluding alternatives from further evaluation and stated that the Department’s draft and
supplemental EISs did not sufficiently demonstrate that the alternatives were not reasonable for
purposes of a NEPA analysis. However, these two Federal agencies also acknowledged that the
Department was the lead agency for this review and that it was ultimately within the
Department’s discretion to decide not to include further analysis of alternative routes in the EIS.

        On November 10, 2011, the Department announced its intent to provide additional
alternative routes analyses in a supplemental EIS in response to the continuing concerns received
on the proposed route through the Sand Hills area of Nebraska. However, even if the
Department had not agreed to perform additional analyses of the alternative routes, if the
Department of Energy, the Environmental Protection Agency, or another agency had disagreed
with the Department on this matter and had believed that the proposed action was
environmentally unsatisfactory, the agency could have referred the matter to the Council on
Environmental Quality. Additionally, under the Executive Order 13337 process, if an agency
involved in that process disagrees with the Department’s proposed determination for a
Presidential permit, the agency can request that the matter be referred to the President for
consideration.13

Department Expertise in Executing NEPA

         The Department’s limited technical resources, expertise, and experience impacted the
implementation of the NEPA process. The Department had an attorney involved in the process
who had some prior experience and familiarity with NEPA. However, Department, other
agency, and industry officials stated that the Department did not have a lot of technical resources
or expertise for implementing the NEPA and EIS processes. The NEPA Coordinator position
was filled by limited-term Foreign Service Officers who, at the time of their appointments, had
little or no prior NEPA experience and had to seek training and learn quickly on the job as they
tried to fulfill their responsibilities. As a result, the Department relied heavily on outside parties,
such as its third-party contractor and other Federal agencies with expertise, to address issues
related to alternatives and mitigation, pipeline safety, and environmental risks throughout the EIS
process.

        For example, had the Department had more expertise in NEPA and more knowledge of
the information and analysis needed for an EIS, the Department may have been able to avoid the
Environmental Protection Agency’s poor rating of the draft EIS and the need for a supplemental
EIS. Environmental Protection Agency officials rated the draft EIS as “Category 3-Inadequate
Information,” which they defined as not adequately assessing potentially significant
environmental impacts of the proposed action, or the Environmental Protection Agency reviewer
13
  The Environmental Protection Agency has specific authority to do so under sec. 309 of the Clean Air Act
(42 U.S.C. § 7609), and all agencies can do so under the Council on Environmental Quality’s regulations at 40 CFR
1504. The agencies involved in the Executive Order 13337 process can do so under sec. 1(i) of the Executive order.

                                                   20
                                              UNCLASSIFIED
                                               UNCLASSIFIED


has identified new, reasonably available alternatives outside of those analyzed in the draft EIS
that should be analyzed. Further, a Category 3 is assigned when the Environmental Protection
Agency does not believe the draft EIS is adequate for the purposes of the NEPA review and
should be formally revised. Environmental Protection Agency officials stated in their July 2010
letter that additional information and improved analyses were necessary to ensure that the
information in the draft EIS was adequate to fully inform decision makers and the public about
the potential environmental consequences of the project. Several other Federal agencies
provided similar comments to the draft EIS, stating that the EIS lacked information and that it
needed additional analysis. As a result of these comments, the Department issued a
supplemental EIS in April 2011 and ended the public comment period in June 2011, which
prolonged the EIS process by 11 months.

         In addition, during the OIG review, U.S. Fish and Wildlife Service officials stated that
initially, as part of the environmental review process, their interactions were primarily and
almost exclusively with Cardno Entrix for the required Section 714 consultations under the
Endangered Species Act. These consultations are typically an agency-to-agency process and
require involvement from the lead agency that makes the final decisions on issues raised under
Section 7. However, Department officials involved in the EIS did not initially have the
knowledge or scientific background to fully participate in the consultations. Ultimately, the
Department hired an individual with the biological background to handle the threatened and
endangered species issues. Fish and Wildlife Service officials stated that after the individual was
hired, the situation improved.

        Initially, the Department’s team for executing the EIS process consisted of one person in
the Bureau of Oceans and International Environmental and Scientific Affairs and a legal adviser,
with some assistance from an individual in the Bureau of Economic and Business Affairs.
Recognizing the challenges involved in executing the NEPA process, the Department initiated
actions to augment the team that was implementing the process. Specifically, the Department
assigned a biologist, as well as another individual to lead the tribal consultations, for the process.
In addition, to provide consistency to the team, the Department has developed and is in the
process of filling a full-time Civil Service position within the Bureau of Oceans and International
Environmental and Scientific Affairs specifically for handling the NEPA process and managing
EIS third-party contracts.

Conclusion

         The Department’s final EIS for Keystone XL generally addressed and incorporated the
views and concerns of Federal agencies. However, a few concerns were not completely
incorporated, such as the manner in which alternative routes were considered in the
Department’s EIS. Federal agencies commented on the lack of inclusion and full evaluation of
alternative routes to the route proposed in the EIS. However, the Department considered and
still eliminated these other route alternatives from further evaluation in the EIS based on
technical, economical, and environmental reasons. Some Federal agencies expressed concern
14
  Section 7 of the Endangered Species Act requires the lead agency for the NEPA process to informally and
formally consult with the U.S. Fish and Wildlife Service to determine the likelihood of effects on listed species from
the proposed project.

                                                    21
                                               UNCLASSIFIED
                                         UNCLASSIFIED


with the Department’s reasoning for eliminating the route alternatives, but they acknowledged it
was ultimately the Department’s decision and was within the Department’s discretion as the lead
agency to not include a full evaluation of alternative routes in the EIS.

         The Department’s limited technical resources, expertise, and experience impacted the
implementation of the NEPA process. The Department had to rely more on outside parties, such
as its third-party contractor and other Federal agencies with expertise, to address issues related to
alternatives and mitigation, pipeline safety, and environmental risks throughout the EIS process.
As a result, OIG believes the EIS and related processes were less effective, thereby delaying the
decision for approval or denial of the Keystone application.

       Recommendation 2. OIG recommends that the Department of State fill at least one full-
       time Civil Service position within the Bureau of Oceans and International Environmental
       and Scientific Affairs with staff who have experience and expertise in handling National
       Environmental Policy Act issues and the environmental impact statement process.

       Management Response: The Department agreed with the recommendation, stating that
       it is “in the process of filling” a Civil Service position and that “public posting” for the
       position closed on February 3, 3012.

       OIG Reply: OIG considers this recommendation resolved, pending further action. The
       recommendation can be closed when OIG reviews and accepts documentation showing
       that a Civil Service position for “handling the NEPA process and managing NEPA third-
       party contracts” has been filled. The Department should, however, continuously reassess
       whether its staffing and other resources are sufficient to fulfill its responsibilities under
       NEPA.

Finding C. Relationship Between Cardno Entrix and TransCanada
         Cardno Entrix has been the third-party EIS contractor for two Federal Energy Regulatory
Commission pipeline reviews and two Department pipeline reviews for which TransCanada or
an affiliate was the permit applicant. In addition, Cardno Entrix has also received a minimal
amount of contract work on two corporate projects that Cardno Entrix has been associated with
for many years but that were bought by TransCanada in 2007 and 2008. OIG determined that
these relationships did not present a conflict of interest because they are not directly related to
the Keystone XL project and are either federally controlled relationships or minimal financial
relationships that would not “impair the contractor’s objectivity in performing the contract work”
or “result in an unfair competitive advantage to a contractor.” In addition, no agreements
between Cardno Entrix and TransCanada for future services for Keystone XL were found.
However, the Department did not require the applicant (TransCanada) to review and certify
Cardno Entrix’s organizational conflict of interest statement, as required by the Federal Energy
Regulatory Commission’s Handbook, nor did the Department perform any independent inquiry
to verify Cardno Entrix’s organizational conflict of interest statements. Finally, a preliminary
inquiry determined that there were no personal financial conflicts of interest of those Department
employees who were personally and substantially involved.


                                              22
                                         UNCLASSIFIED
                                              UNCLASSIFIED





Conflict of Interest Allegation

        An October 7, 2011, article from The New York Times alleged that the Department
assigned the Keystone XL EIS to Cardno Entrix, “a company with financial ties to the pipeline
operator.” The article stated, “Cardno Entrix . . . had previously worked on projects with
TransCanada and describes the pipeline company as a ‘major client’ in its marketing materials.”
In their letter to OIG, members of Congress stated, “On its face alone, this creates an appearance
of a conflict of interest and raises several questions,” including the following:

                  To what extent is there a contractual or financial relationship between Cardno
                   Entrix and TransCanada beyond Keystone XL?
                  Does Cardno Entrix have a contract or agreement with TransCanada wherein
                   Cardno Entrix would provide services, such as spill response, for Keystone XL?

Conflict of Interest Regulations and Guidance

        There are several regulations and guidance documents that address conflicts of interest in
relation to EISs. For example, the Council on Environmental Quality’s NEPA regulations and
guidance state that EIS contractors must execute a disclosure statement specifying that they have
no financial or other interest in the outcome of the proposed project. An example of a financial
interest would be an EIS contractor for a construction project that, at the same time, has an
agreement to perform the construction or is the owner of the construction site. Council on
Environmental Quality guidance on NEPA15 states, “[I]f there are no such . . . interests or
arrangements, and if the contract for EIS preparation does not contain any incentive clauses or
guarantees of any future work on the project, it is doubtful that an inherent conflict of interest
will exist.”

         The intent of the Council on Environmental Quality regulations and guidance is to
prevent a conflict of interest among the involved parties. This guidance stipulates that the
responsible Federal official furnish guidance and participate in the preparation of the contractor’s
disclosure statement documentation and that the lead Federal agency evaluate potential conflicts
of interest prior to entering into any contract for the preparation of environmental documents. To
facilitate compliance with NEPA regulations and guidance, the Department utilizes the conflict
of interest procedures developed in the Federal Energy Regulatory Commission’s Handbook as
additional guidance. The Handbook uses the term “organizational conflict of interest” to refer to
a relationship that would “impair the contractor’s objectivity in performing the contract work” or
“result in an unfair competitive advantage to a contractor.” Organizational conflicts of interest
typically exist where a contractor has past, present, or currently planned interests in the project to
be covered by the third-party contract. For example, an organizational conflict of interest can
exist if the contractor (1) has been involved with the applicant on the project before the project is
proposed to the Federal agency or while it is pending with the Federal agency, (2) has an
ongoing relationship with the applicant, (3) would be called on to review its own prior work, or

15
     Council on Environmental Quality’s “Guidance Regarding NEPA Regulations,” dated 1983.

                                                   23
                                              UNCLASSIFIED
                                         UNCLASSIFIED


(4) has a financial or other interest in the outcome of the Federal agency’s decision. The
Handbook also states that for each proposal submitted to the Federal agency, the applicant must
provide an organizational conflict of interest certification stating that it has reviewed the
proposal for organizational conflicts of interest and found it to be acceptable. It is the applicant’s
responsibility to review carefully all organizational conflict of interest materials to determine
whether a bidder, including any subcontractors, is capable of impartially performing the
environmental services required under the third-party contract.

Department’s Implementation of Organizational Conflict of Interest Regulations and
Guidance

        Although specific contractual and financial relationships exist between Cardno Entrix and
TransCanada, OIG found that these relationships did not present a conflict of interest. OIG
found that Cardno Entrix has been the third-party EIS contractor for two Federal Energy
Regulatory Commission pipeline reviews and two Department pipeline reviews for which
TransCanada or an affiliate was the permit applicant and paid the bills. In addition, OIG found
that Cardno Entrix has done a minimal amount of contract work (about 0.3 percent of Cardno
Entrix’s total revenue from TransCanada over a 9-year period) on two corporate projects Cardno
Entrix has been associated with for many years but that were bought by TransCanada in 2007
and 2008. OIG determined that these relationships do not present a conflict of interest because
they are not directly related to the Keystone XL project and are either federally controlled
relationships or minimal financial relationships that would not “impair the contractor’s
objectivity in performing the contract work” or “result in an unfair competitive advantage to the
contractor.” The Department and the Federal Energy Regulatory Commission, collectively, have
directed the contracts under which 99.7 percent of all payments from TransCanada to Cardno
Entrix (by value) have been made during the last 7 years. The contractual relationships that exist
between Cardno Entrix and TransCanada do not violate Federal Energy Regulatory Commission
Handbook organizational conflict of interest guidelines. Although not written into Federal
Energy Regulatory Commission guidelines, Federal Energy Regulatory Commission officials
interviewed by OIG indicated that they do not consider Federal agency-controlled third-party
contracts to present potential organizational conflicts of interest and that they use a ceiling of
1 percent of a contractor’s annual revenue as a de facto cut-off for a minimal financial
relationship that would not present a potential organizational conflict of interest. In addition,
OIG found that no agreements exist between Cardno Entrix and TransCanada for future services
for Keystone XL.

Execution of Organizational Conflict of Interest Statements

        Cardno Entrix and its subcontractors executed organizational conflict of interest
Representation and Questionnaire documentation as required in the Federal Energy Regulatory
Commission’s Handbook, and Department officials reviewed the documentation. A Department
official stated that the organizational conflict of interest materials are taken at face value.
However, the Department did not request, and TransCanada did not provide, the organizational
conflict of interest certification required by the Federal Energy Regulatory Commission
Handbook, nor did the Department conduct any independent inquiry into the information
contained in the organizational conflict of interest statement. OIG asked Federal Energy

                                              24
                                         UNCLASSIFIED
                                             UNCLASSIFIED


Regulatory Commission officials about their organizational conflict of interest review process,
and these officials stated that they review contractors’ organizational conflict of interest
organizational materials and sometimes they ask for further information or conduct Internet
research on the project’s owner and affiliates. In an effort to better determine conflicts of
interest, rather than relying solely on contractor statements, the Department plans to consult with
the Federal Energy Regulatory Commission on future projects. The Department is also
discussing whether to contract with a company that investigates financial relationships.

        OIG reviewed Cardno Entrix’s organizational conflict of interest documents and found
that they conform to applicable regulations and guidance and do not indicate an organizational
conflict of interest. Additionally, TransCanada officials stated to OIG that there is no
organizational conflict of interest with Cardno Entrix, and Cardno Entrix officials stated that they
have only contractual relationships with TransCanada, all of which have been disclosed to the
Department. Cardno Entrix’s financial relationship with TransCanada is discussed in the
sections that follow.

Financial Relationship

         OIG reviewed the financial relationship between Cardno Entrix and TransCanada to
determine whether an organizational conflict of interest exists. This review found no corporate
affiliations between TransCanada and Cardno Entrix. Additionally, OIG analyzed Cardno
Entrix’s net revenues for TransCanada projects from 2002 to 201116 and found that 99.7 percent
of this revenue was from two Federal Energy Regulatory Commission and two Department
pipeline review contracts, where a Federal agency is the client and directs the work. The
remaining 0.3 percent of revenue was from two corporate projects that Cardno Entrix has been
associated with for many years but that were bought by TransCanada in 2007 and 2008. Federal
Energy Regulatory Commission officials stated to OIG that they consider 1 percent or more of
revenue from the applicant to be the threshold for an organizational conflict of interest.
Therefore, OIG concluded that these two corporate projects do not constitute an organizational
conflict of interest.

        OIG also noted that Cardno Entrix was billing for “programmatic agreement” work
related to Keystone I when it submitted its proposal for the Keystone XL EIS. This could be
construed as an “ongoing relationship” between Cardno Entrix and TransCanada. However, this
work is performed by a third-party contractor under direction of the Department as part of the
continuing work on Keystone I; therefore, the “ongoing relationship” is with the Department and
not TransCanada. Furthermore, according to Federal Energy Regulatory Commission officials, it
is not uncommon for a contractor to bid on a new project while monitoring a previous project
owned by the applicant, and the Federal Energy Regulatory Commission does not consider this
to present a potential organizational conflict of interest. The Department does not consider this
to be a conflict of interest because the Federal Government is the client and directs the work of
the third-party contractor. In this case, while TransCanada pays Cardno Entrix for its continuing
work on Keystone I, Cardno Entrix takes direction from and reports solely to the Department.

16
  For this review, the analysis of Cardno Entrix’s revenues from TransCanada was performed on data disclosed to
the Department by Cardno Entrix.

                                                  25
                                             UNCLASSIFIED
                                        UNCLASSIFIED




Agreement for Future Services

        OIG reviewed documentation for the Keystone XL EIS contract and found that it does
not contain any incentives or provisions for future work for Cardno Entrix. Moreover, it
specifically prohibits Cardno Entrix from performing “any services for or enter[ing] into any
contract with others that may conflict with its contractual, professional, equitable or other
obligations to the Company [TransCanada], its subsidiaries, affiliates and joint ventures without
first obtaining the written approval of the Company [TransCanada] and DOS [Department].”
Additionally, a TransCanada official stated that TransCanada has not entered into any future
service agreements with Cardno Entrix for its Keystone pipelines.

        Furthermore, when asked about the Keystone XL oil spill response plan, a TransCanada
official stated that oil spill response plans are normally completed once a project is finished.
Therefore, the Keystone XL oil spill response plan is not finished. However, TransCanada is
using Keystone I as its template. Oil spill response for Keystone I is contracted to the National
Response Corporation. OIG reviewed National Response Corporation subcontractors and found
no affiliation with Cardno Entrix or its subsidiaries. A Cardno Entrix official stated that
although Cardno Entrix provides oil spill response services for a wide range of companies, it
does not perform such services for TransCanada.

Conclusion

         Based upon the information reviewed, OIG did not identify an organizational conflict of
interest between Cardno Entrix and TransCanada. However, the Department did not verify
Cardno Entrix’s organizational conflict of interest statements, accepting them at face value. The
Department did not request, and TransCanada did not provide, the organizational conflict of
interest certification required by the Federal Energy Regulatory Commission Handbook, nor did
the Department conduct any independent inquiry regarding the information contained in the
organizational conflict of interest statement. Ultimately, it should be the Department’s
responsibility to review and certify the contractor’s organizational conflict of interest materials.
By not conducting further inquiry on contractors’ organizational conflict of interest statements,
the Department could miss existing organizational conflicts of interest. An undetected
organizational conflict of interest could affect the objectivity of a contractor’s work or at least
call its objectivity into question.

       Recommendation 3. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs, in coordination with the Bureau of Administration
       and the Office of the Legal Adviser, redesign the Department of State process for
       selecting and using third-party contractors in order to improve the Department’s
       organizational conflict of interest screening process.

       Management Response: The Department agreed with this recommendation, stating that
       as part of its effort to “redesign” the third-party contractor process, it will “develop
       measures that will provide for additional verification of potential organizational conflicts



                                             26
                                        UNCLASSIFIED
                                               UNCLASSIFIED


         of interest between prospective third-party contractors and the applicant for a Presidential
         permit.”

         OIG Reply: OIG considers this recommendation resolved, pending further action. The
         recommendation can be closed when OIG reviews and accepts documentation showing
         that the third-party contractor process has been redesigned to improve the Department’s
         organizational conflict of interest screening process.

Finding D. The Pipeline and Hazardous Materials Safety Administration
Permit
        Based on its review of documentation and interviews of appropriate Department,
interagency, and industry personnel, OIG determined that the Department did not violate its role
as an unbiased oversight agency. TransCanada made the decision to withdraw its special permit
application. OIG found no evidence during its review that the Department had assured
TransCanada that it could obtain the permit at a later date through a less scrutinized and less
transparent process. OIG also found that the Pipeline and Hazardous Materials Safety
Administration, not the Department, has the statutory authority17 to issue special permits as they
relate to pipeline safety and that the Department became actively involved in discussing the
special permit conditions only after TransCanada withdrew its special permit application because
the Department wanted to enhance the safety of the pipeline. After TransCanada withdrew the
application, the Department worked with the Pipeline and Hazardous Materials Safety
Administration and TransCanada to adopt 57 special conditions18 designed to increase Keystone
XL’s safety.

Special Permit Process

        To obtain a special permit, Pipeline and Hazardous Materials Safety Administration
regulations require applicants to provide a special permit application, including a citation of the
specific regulation from which the applicant seeks relief from compliance. The applicant is also
required to demonstrate that a special permit achieves a level of safety at least equal to that
required by regulation or, if a required safety level does not exist, is consistent with the public
interest. Once received, the Pipeline and Hazardous Materials Safety Administration’s Associate
Administrator reviews the application and has the discretion to grant or deny the application in
whole or in part. The Associate Administrator also has the discretion to impose additional
provisions on the applicant that were not specified in the application.

       Pipeline and Hazardous Materials Safety Administration regulations state that the
applicant may withdraw its application at any time before a decision is made to grant or deny the
request. The regulations do not specify any limitation on reapplying for a special permit after an
application is withdrawn.
17
  49 U.S.C. § 60118.

18
  Special permit conditions were designed “to achieve an equivalent or better level of pipeline safety compared to if 

no special permit were approved” and addressed “both the specific concerns raised by operation and design safety

factors of the Keystone XL” pipeline. (Source: Pipeline and Hazardous Materials Safety Administration Docket No. 

PHMSA-2008-0285.)


                                                    27
                                               UNCLASSIFIED
                                              UNCLASSIFIED



The Department’s Role in the Pipeline and Hazardous Materials Safety Administration’s
Process

       On October 10, 2008, soon after submitting its Presidential permit application to the
Department, TransCanada filed an application for a special permit with the Department of
Transportation, Pipeline and Hazardous Materials Safety Administration,19 to operate the
Keystone XL pipeline at a pressure higher than is normally allowed by the current regulation.
The current regulation requires a standard design factor 20 of 0.72 (72 percent) for the pipe, and
TransCanada requested a special permit to operate the pipeline at a design factor of 0.80 (80
percent). If approved, the special permit would authorize TransCanada to operate Keystone XL
pipeline at the higher pressure.

        TransCanada decided to withdraw its application because of unforeseen distractions that
resulted from the special permit request. A TransCanada official stated that the special permit
application had become a distraction from the Presidential permit application process.
Therefore, on August 5, 2010, TransCanada withdrew its special permit application from the
Pipeline and Hazardous Materials Safety Administration, hoping to change public opinion and
focus on the Presidential permit application. The TransCanada official stated that although
Department officials shared TransCanada’s view that the special permit application had created a
political distraction, Department officials did not direct TransCanada to withdraw its application
and reapply later. Department officials also stated that they had made no commitments to
TransCanada regarding the special permit, and OIG’s review of Department records found no
such commitments.

         Pipeline and Hazardous Materials Safety Administration officials stated that only their
organization has the authority to approve a special permit application and that the Department
does not have any role in this part of the application review process. Should TransCanada
reapply for a special permit, the Pipeline and Hazardous Materials Safety Administration will
start the review process from the beginning, and that process will include a new environmental
assessment.21

       The Department became actively involved with the Pipeline and Hazardous Materials
Safety Administration after TransCanada withdrew its special permit application. During the
Pipeline and Hazardous Materials Safety Administration’s review of the special permit request
process, Department officials learned of the progress of the special permit application review
process during meetings with TransCanada and Pipeline and Hazardous Materials Safety
Administration officials concerning the Presidential permit application (the Pipeline and
Hazardous Materials Safety Administration is a cooperating agency on the EIS). After
TransCanada withdrew its application, the Department contacted the Pipeline and Hazardous

19
   The Pipeline and Hazardous Materials Safety Administration is responsible for ensuring the safety of U.S. energy
pipelines, including crude oil pipelines.
20
   A standard design factor is a safety factor based on the ratio of ultimate load to maximum permissible load that
can be safely placed on a structure.
21
   As a part of the review of the special permit, the Pipeline and Hazardous Materials Safety Administration
conducts its own environmental assessment, which assesses whether granting a special permit would have a
significant impact on the environment.

                                                   28
                                              UNCLASSIFIED
                                        UNCLASSIFIED


Materials Safety Administration and requested its technical assistance to enhance the overall
safety of Keystone XL. The Pipeline and Hazardous Materials Safety Administration
recommended the adoption of special conditions that it had developed. The Department and the
Pipeline and Hazardous Materials Safety Administration worked together and ultimately
established 57 project-specific special conditions. Pipeline and Hazardous Materials Safety
Administration officials stated that they considered these special conditions to be robust and that
they represent best practices within the pipeline industry. For the Department, the special
conditions enhance the safety of the pipeline and address comments received during the EIS
process about pipeline construction, operation, and maintenance. At the Department’s request,
TransCanada committed to operate Keystone XL under the 57 special conditions, even if it does
not decide to reapply for permission to operate the pipeline at a higher pressure.

        TransCanada withdrew its special permit application, knowing that it could reapply for a
special permit later. When asked if a new special permit application would be guaranteed
approval even if the 57 special conditions were adopted, Safety Administration officials stated,
“Absolutely not.” If TransCanada wants to operate Keystone XL at a higher pressure, it will
have to reapply for a special permit. The officials further stated that permit approval would not
be automatic for reasons such as possible changes in environmental regulations and in
environmental conditions.

Conclusion

        Department officials did not advise TransCanada to withdraw its special permit
application, nor did they make assurances regarding reapplication. Even if the officials had
made assurances, the Department does not play a role in the Pipeline and Hazardous Materials
Safety Administration’s application review process. Furthermore, the Department’s involvement
after TransCanada withdrew its special permit application ensured that if the Presidential permit
were to be approved, Keystone XL would operate under robust special conditions that would
increase the pipeline’s safety.

Finding E. Communications Between the Department and TransCanada, the
Canadian Government, and Pipeline Proponents
        OIG found no evidence that communications between Department officials,
TransCanada, the Canadian Government, and proponents of the Keystone XL pipeline deviated
from the Department’s obligation under Federal law to provide an objective analysis of the
project and its potential risks. Specifically, OIG found no record that Department officials had
made inappropriate commitments on behalf of the Department to TransCanada or to the
Canadian Government. OIG also found no support for the contention that the Department
coached TransCanada on what to say during the legally mandated review process. Lastly, OIG
found that the Department also kept TransCanada officials at arm’s length from decision makers
and other senior officials.




                                             29
                                        UNCLASSIFIED
                                               UNCLASSIFIED



Communications Criteria

        Executive Order 13337 establishes the required process and legal framework for
determining whether a Presidential permit is in the national interest. In addition, the Department
has incorporated the NEPA process into the Executive order process and conducts the entire
process generally in accordance with the Administrative Procedures Act.22 However, none of the
authorities in this combined legal framework establish how the Department should communicate
with the permit applicant (that is, TransCanada), the Canadian Government, or proponents or
opponents of the pipeline.23

Department Communications

          The October 26, 2011, letter from members of Congress asked whether communications
between Department officials, TransCanada, the Canadian Government, or proponents of
Keystone XL deviated from the Department’s obligations under Federal law to provide an
objective analysis of the project and its potential risks. The members also asked whether
Department officials, past or current, improperly disclosed any materials or information to
TransCanada, the Canadian Government, or proponents of Keystone XL. Also, OIG received a
letter from several environmental nongovernmental organizations, dated October 28, 2011,
alleging that Department officials improperly advised TransCanada on Keystone XL and made
inappropriate commitments on behalf of the Department to TransCanada.

        OIG found no evidence that Department officials had made any inappropriate
commitments on behalf of the Department to TransCanada or to the Canadian Government. OIG
found that throughout the EIS process, TransCanada provided detailed factual and technical
input regarding its proposed project as needed for the Department’s environmental analysis.
TransCanada was also involved in negotiating conditions on and changes to the proposed project
as the Department and other agencies deemed appropriate throughout the EIS process, including
the NEPA-required consideration of mitigation measures and the regulatory reviews related to
cultural and historic preservation and endangered species. These interactions were primarily at
the staff level. OIG considered such involvement by the applicant to be routine, reasonable, and
required as part of the EIS process and related regulatory consultations, such as those under
Section 106 of the National Historic Preservation Act and Section 7 of the Endangered Species
Act.

        In addition to those required staff-level interactions, OIG found that three meetings were
held at the Deputy Assistant Secretary level or the Assistant Secretary level with TransCanada
officials between July 2010 and October 2011. In its review of available meeting notes, OIG did
not find any inappropriate commitments from Department officials. Specifically, the meeting
notes did not indicate that Department officials made any comments on the merits of the

22
   The Administrative Procedures Act “requires an agency that is engaged in informal rulemaking” to “afford
interested persons an opportunity to participate through the submission of written data, views, or arguments, with or
without opportunity for oral presentation.”
23
   As noted in the Background section, the Executive order allows for the Department to seek public comments on a
Presidential permit application. Also, as noted in Finding B, the public involvement and public comment periods
are required as part of the NEPA process.

                                                    30
                                               UNCLASSIFIED
                                                UNCLASSIFIED


application or commitment to eventual approval of the application. Further, in response to
interagency and public comments received during the EIS process and in order to further its
objective analysis of the project and its potential risks, the Department made two significant
decisions that were adverse to TransCanada despite TransCanada’s communications containing
arguments against those Department decisions.

        The first decision resulted from public comments to the draft EIS and the Environmental
Protection Agency’s rating the draft EIS as “Inadequate Information.” TransCanada disagreed
with the need to conduct a supplemental draft EIS, but nevertheless, the Department decided to
proceed with a supplemental draft EIS. The second decision occurred in November 2011
concerning Keystone XL’s environmental impact on the Sand Hills in Nebraska, when the
Department announced that it would analyze additional alternative routes and that the process
could be completed by the first quarter of 2013.

        In correspondence with proponents of the pipeline, Department officials did not prejudge
the process or make inappropriate commitments. Instead, while acknowledging the economic
benefits, the officials indicated that a decision would be based on all relevant factors, including
environmental and economic impacts.24 In meetings with environmental groups opposed to the
pipeline, Department officials likewise did not prejudge the process or make inappropriate
commitments. Department officials encouraged input from all sources, indicated that they were
considering all comments made as part of the public comment process, and further indicated a
willingness to receive relevant studies that were publicly available.

        OIG also did not find evidence that the Department had advised TransCanada on what to
say during the legally mandated review process. For example, environmental nongovernmental
groups alleged that a Department official, the former Special Envoy and Coordinator for
International Energy Affairs, had assured Canadian officials that Keystone XL would be
approved and that he had instructed TransCanada officials on how to improve messaging to the
public about tar sands. However, OIG found that the individual did not participate in the
Department’s process for preparing the EIS or adjudicating the permit application. Furthermore,
OIG’s review of documents and interviews with the former Special Envoy and his staff did not
indicate that the Department official had made any inappropriate commitment. The official was
accessible to parties on both sides of the issue and did not take any action that impaired or
attempted to impair an objective analysis of the application.

        There were also allegations that an Embassy Ottawa official’s communications with
TransCanada officials showed bias within the Department. Based on OIG’s review of the
official’s email records, OIG determined that the official’s email messages to a TransCanada
official were cordial and familiar in tone. However, the messages did not convey any
inappropriate commitments on behalf of the Department. Furthermore, the official did not
participate in the preparation of the EIS or in the broader national interest determination process,
and OIG did not find evidence that the email exchanges had had any impact on the Department’s
analysis of the project.
24
  Environmental and economic impacts are components of the national interest determination, which also involves
consideration of factors that include energy security, cultural impacts, foreign policy, and compliance with relevant
Federal regulations.

                                                     31
                                                UNCLASSIFIED
                                                  UNCLASSIFIED



        The Department also kept TransCanada officials at arm’s length from decision makers
and other senior officials. OIG found no evidence that Department senior officials met with
TransCanada officials despite repeated efforts from TransCanada to obtain a meeting.
Department records show that from July 2010 through October 2011, Department senior officials
met with TransCanada officials once in July 2010 and once in February 2011 and met several
times with environmental nongovernmental organization officials on the proposed pipeline.
Finally, with the then-anticipated close of the public comment period in October 2011, the
Department’s Office of the Legal Adviser provided guidance on avoiding improper ex parte
contacts,25 counseling against advising TransCanada on internal deliberations, or giving advance
notice of a Department decision on the application.

       In attempting to determine whether Department officials made themselves available to a
wide range of groups holding different views on the proposed pipeline, OIG found that
Department officials did make themselves available to many groups and individuals. A sample
of some of the meetings held by Department officials to discuss Keystone XL is presented in
Table 3.

Table 3. Department Meetings on Keystone XL
Date            Group/Individual
July 19, 2010   TransCanada officials
July 20, 2010   TransCanada officials
Sept. 9, 2010   TransCanada officials
Sept. 10, 2010  Environmental nongovernmental organization officials
Sept. 20, 2010  Canadian & U.S. Aboriginal Delegation and National Resources Defense
                Council
Oct. 15, 2010   TransCanada officials
Dec. 7, 2010    Indian tribal groups
Jan. 25, 2011   Canadian Government officials
Jan. 26, 2011   National Resources Defense Council and Pembina Institute
Feb. 10, 2011   TransCanada officials
March 3, 2011   Canadian Energy Pipeline Association
March 9, 2011   Nebraska Leaders & Sierra Club representatives
March 30, 2011 Environmental nongovernmental organization officials
April 11, 2011  TransCanada officials
April 13, 2011  Canadian Association of Petroleum Producers
April 15, 2011  Environmental nongovernmental organization officials
April 28, 2011  Alliance for Climate Protection
May 27, 2011    Canadian Chiefs, Environmental Defense Canada, Climate Action Network,
                and The Pembina Institute
May 27, 2011    Environmental nongovernmental organization officials
July 27, 2011   Cenovus Energy officials
Aug 16, 2011    Canadian Government officials

25
     Ex parte communication is unilateral contact with one party without notice to the other party.

                                                       32
                                                  UNCLASSIFIED
                                             UNCLASSIFIED



Aug. 22, 2011        Environmental nongovernmental organization officials
Sept. 2, 2011        Indigenous Environmental Network
Oct. 6, 2011         Indigenous leaders and Canadian First Nation representatives
Oct. 6, 2011         Faith Group leaders
Oct. 6, 2011         High school students
Source: Bureau of Oceans and International Environmental and Scientific Affairs

Conclusion

       Based on its review of the Department’s communications, OIG determined that
communications between Department officials, TransCanada, the Canadian Government, and
proponents of the Keystone XL pipeline did not deviate from the Department’s obligation under
Federal law to provide an objective analysis of the project and its potential risks.

Finding F. Department Compliance With Federal Disclosure Requirements
        OIG determined that the Department fully complied with the general disclosure
requirements applicable to the Presidential permit and EIS processes. The Department’s notices
in the Federal Register show that the Department provided, among other things, the required
notice of its decisions to initiate an EIS and a national interest determination for Keystone XL.
The Department also announced public meetings and invited comments from the public and
consulted with Federal agencies, as well as with State, tribal, and local governments.

Disclosure Requirements

         Several Federal authorities are relevant to the Department’s disclosure practices as part of
the Keystone XL permit process. Primarily, Executive Order 13337 delineates which Federal
agencies the Department must consult with once it receives a permit application. Further, the
Executive order indicates that the Department should request views of other Federal Government
departments and agencies as it deems appropriate and that the Department may also consult with
State, tribal, and local government officials and provide notice of the permit application in the
Federal Register to seek public comment. NEPA and Council on Environmental Quality
regulations guide the EIS process and the associated “disclosure” of the EIS, including
describing how public comment is to be sought and evaluated.

Department Compliance With Disclosure Requirements

        The Department published multiple notices in the Federal Register regarding Keystone
XL, which was in compliance with disclosure requirements. The Department’s Federal Register
notices related to Keystone XL are summarized in Table 4.

Table 4. Summary of the Department’s Federal Register Notices for Keystone XL
    Notice           Date                             Federal Action
73 FR 65713   November 4, 2008  announced receipt of a permit application from
                                     TransCanada
                                  described the proposed pipeline route

                                                  33
                                             UNCLASSIFIED
                                       UNCLASSIFIED



                                          noted TransCanada’s ownership
                                          reported that the Department is circulating the permit
                                           application to other Federal agencies and invited
                                           public comment
74 FR 5019        February 10, 2009       announced the Department’s intent to prepare an EIS
                                           for Keystone XL
                                          listed 20 public scoping meetings, in accordance with
                                           Department regulations
                                          solicited comments
75 FR 20653       April 20, 2010          announced availability of the draft EIS and invited
                                           comments by May 31, 2010
                                          listed 19 additional public meetings
                                          noted that copies of the draft EIS have been mailed to
                                           interested Federal, state, and local agencies; to public
                                           interest groups; to individuals and affected
                                           landowners who requested a copy or provided
                                           comments during the scoping period; and to libraries,
                                           newspapers, and other stakeholders
75 FR 22890       April 30, 2010          extended the deadline for submission of public
                                           comments on the draft EIS to June 16, 2010
75 FR 33883       June 15, 2010           extended the deadline for submission of public
                                           comments on the draft EIS to July 2, 2010
                                          provided notice of two additional public meetings
76 FR 22744       April 22, 2011          issued notice of a supplemental draft EIS and
                                           requested comments via email, mail, fax, or the
                                           Department’s Web site by June 6, 2011
76 FR 53525       August 26, 2011         announced release of the final EIS
                                          invited further comment on Keystone XL
                                          announced nine additional public meetings to be held
                                           in September and October 2011
                                          stated the Department’s determination of whether
                                           issuance of a permit “would serve the national
                                           interest” would take into account a wide range of
                                           factors, including environmental, economic, energy
                                           security, foreign policy, and pipeline safety concerns
                                          indicated the Department expected to make a decision
                                           on whether to grant or deny the permit before the end
                                           of the year

        In addition, the Department’s final EIS disclosed and catalogued the Department’s
analysis and public discussions of the environmental issues associated with Keystone XL. The
Department also included the following documents in the final EIS: (1) a listing of public
comments submitted to the Department that included comments from Federal, tribal, State, and
local agencies and the Department’s responses to those comments; (2) a list of preparers for the
EIS; and (3) the Department’s EIS distribution list. Also, the Department’s Web site for

                                            34
                                       UNCLASSIFIED
                                              UNCLASSIFIED


Keystone XL provides direct, public access to copies of EIS documents and other information
about the permit and EIS processes, and it includes a link to the applicant’s Web site regarding
the pipeline.

Conclusion

       The Department’s actions provided Government agencies and the public ample
information and opportunity over the course of several years to study and comment on Keystone
XL and to understand and participate in the Department’s decision-making process. The
Department’s disclosures, many of which invited comment, ensured that the Department
benefited from a wide range of views and expertise throughout the permit application process.

Finding G. Department Fulfillment of Freedom of Information Act Requests
        The Department’s processing and fulfillment of Keystone XL-related FOIA requests have
been as timely as, or faster than, its processing and fulfillment of other FOIA requests of similar
complexity. Although the Department has not made a final determination on any of the
Keystone XL-related requests within the baseline statutory requirement of 20 days, the
Department has generally acknowledged requests within 20 days, assigning case numbers and
the track in which the request was to be processed and informing requestors that it is processing
the requests. OIG found that the Department has been consistent with its established processes
in processing Keystone XL requests, given the complexity and volume of the records involved.

FOIA Regulations and Guidance

        FOIA allows for the public to request records from Federal Government agencies and
establishes “a strong presumption in favor of disclosure.”26 FOIA defines agency records as all
documentary materials that are either created or maintained by an agency and are under agency
control at the time of an FOIA request. Records can include, but are not limited to,
correspondence, reports, media files, emails, and email attachments.

       When an agency receives a proper FOIA request (a request that “reasonably describes”
the requested records and is made in accordance with published rules), the agency has 20
working days in which to make a determination to comply with the request, meaning that the
agency has compiled and evaluated records that are responsive to the request and has determined
whether to release records or to deny the request. However, exceptions in FOIA that have been
applied by the courts allow agencies additional processing time as long as the request meets the
requirements of the exception and the agency has diligently processed the request.27 The 20-day
period begins “on the date on which the request is first received by the appropriate component of
the agency, but in any event not later than ten days after the request is first received by any
component of the agency that is designated in the agency’s regulations . . . to receive requests.”
26
   Pub. L. 110-175, sec. 2, Dec. 31, 2007, 121 stat. 2524, sec. (3).
27
   See 5 U.S.C. § 552(a)(6)(C)(i). “If the Government can show exceptional circumstances exist and that the agency
is exercising due diligence in responding to the request, the court may retain jurisdiction and allow the agency
additional time to complete its review of the records. Upon any determination by an agency to comply with a
request for records, the records shall be made promptly available to such person making such request.”

                                                   35
                                              UNCLASSIFIED
                                                UNCLASSIFIED


An agency can toll (that is, pause) the 20-day period for only two reasons: (1) to make one
reasonable request to the requester for information and (2) to clarify with the requester fee
issues.28 In either case, the agency’s receipt of information or clarification from the requester
ends the tolling period. In unusual circumstances, the 20-day period may be extended by written
notice to the requester noting the unusual circumstances leading to the extension and the date on
which the agency expects to make a decision to fulfill the request. If the required extension
exceeds 10 days, the agency must provide the requester with an opportunity to (1) modify the
scope of the request so that it can be processed within 10 days or (2) arrange with the agency an
alternative timeframe for processing the request or a modified request. Unusual circumstances
encompass (1) the need to search for and collect records from facilities that are separate from the
office processing the request; (2) the need to search for, collect, and examine a voluminous
amount of records that are demanded in a single request; or (3) the need for consultation with
another agency or among two or more components within the agency. If legal action is taken for
reasons of untimeliness, the courts may grant an agency additional time to process that request if
the agency shows that its failure to meet the statutory time limits is the result of “exceptional
circumstances” and that it has exercised “due diligence” in processing the request.

        FOIA allows agencies to establish multitrack processing for requests based on the amount
of work or time (or both) involved in processing requests. Agencies are also required to
establish expedited processing procedures for when the requester demonstrates a compelling
need for records and in other cases as determined by the agency. FOIA states that a “compelling
need” means “that a failure to obtain requested records on an expedited basis . . . could . . . pose
an imminent threat to the life or physical safety of an individual” or if there is an “urgency to
inform the public concerning actual or alleged Federal Government activity.”

        The Department has also issued internal FOIA guidance.29 This guidance notes that
FOIA requests are generally processed on a first-in, first-out basis within the processing track to
which the requests are assigned. The Department’s FOIA processing office, the Office of
Information Programs and Services (IPS), has divided the multitrack processing into three tracks:
Simple/Fast, Routine/Complex, and Expedite. A request in the Simple/Fast track requires
material that can be reviewed in a week or less and no searches outside of IPS (for example, the
responsive records are located in the State Archiving System30) or coordination with other
offices or agencies is required and requires the volume of responsive material to be reasonable.
A request in the Routine/Complex track requires that more than one records source be searched
or external coordination. This track is also used if the response contains voluminous amounts of
or highly sensitive records. If a requester can demonstrate that a compelling need for the
information exists, IPS, with approval from the Department’s Office of the Legal Adviser, will
process the request through the Expedite track.



28
   FOIA directs agencies to specify a fee schedule for processing requests and to establish guidelines for determining 

when fees should be waived or reduced.

29
   FOIA Guidance for State Department Employees.

30
   The Department’s State Archiving System maintains the authoritative records of official correspondence and 

communications, including mission-critical, historical, and sensitive cables and foreign relations documentation.

The system has the ability to store, search, retrieve, and manage official correspondence and communications. 


                                                     36
                                                UNCLASSIFIED
                                               UNCLASSIFIED


       The Department’s guidance states that offices and posts should make every effort to meet
the 20-day statutory time requirement to respond to requests. The guidance further states, “It is
important that bureaus, offices, and posts conduct their searches in as timely a manner as
possible.” If a delay in responding is anticipated, IPS should be notified so that it can determine
whether the requester should be contacted to renegotiate the scope of the request.

Department Processing of Keystone XL FOIA Requests

        IPS coordinates, tracks, and reports on the Department’s responses to all FOIA requests.
IPS receives, acknowledges, and assigns control numbers to FOIA requests and tasks bureaus,
offices, and overseas posts with conducting searches. IPS reviews the records found to
determine whether release is appropriate and responds to appeals and litigation brought under
FOIA.

        At IPS, the FOIA process begins when a request is received by the Requester Liaison
Division, which determines the request’s validity, establishes a case number, assigns a
processing track, and moves the request to the appropriate division within IPS for processing.
Invalid or deficient requests are closed, and the requestor is informed of the deficiencies. A new
case is opened when the deficiencies are addressed and a new request is submitted. The section
within IPS that is assigned a case is responsible for processing the request and reviewing
documents that are responsive to the request. Materials are released to the requestor in segments
as they become available for release.

        OIG reviewed 28 Keystone XL-related FOIA requests received by the Department
between March 2009 and November 2011. (These 28 requests are summarized in Appendix D.)
Requesters included media organizations, nonprofit organizations, a law office, a doctoral
candidate, and a private business. The records requested included (1) all correspondence
between the Department and parties such as TransCanada, the Canadian Government, Koch
Industries, environmental nongovernmental organizations, and the State of Nebraska; (2) all
comments submitted by Federal agencies, State agencies, and the public on the draft EIS; (3) all
records regarding the Department’s procedures for processing Presidential permit applications
for pipeline facilities on the United States-Canada border; (4) all records concerning the
Presidential permit applications of TransCanada for its “Keystone I,” “Keystone XL,” and
“Alberta Clipper” pipeline projects;31 (5) an electronic (PDF format) copy on CD-ROM of the
Keystone XL final EIS; and (6) the Geographic Information Systems data that was used to make
the maps in the final EIS. Except for the expedited request for correspondence between the
Department and Koch Industries, all of the Keystone XL FOIA cases have been designated
“complex” cases.

        IPS generally acknowledged receipt of a Keystone XL FOIA request within 2 to 58 work
days,32 with 20 of these requests being acknowledged in 20 work days or less. OIG reviewed five
non-Keystone related FOIA cases of similar complexity and found that the Department generally


31
     The Alberta Clipper project was managed by Enbridge and not TransCanada.
32
     Work days exclude weekends and Federal holidays.

                                                    37
                                               UNCLASSIFIED
                                            UNCLASSIFIED


acknowledged the requests within 12 to 54 work days, with two of these requests being
acknowledged in less than 20 days.

       As of January 30, 2012, the Department had closed eight of the 28 Keystone XL FOIA
requests. Of these eight cases, three were closed because they were duplicate requests, one was
closed because the Department did not possess the requested records, one was closed because
additional information was sought from the requestor and then later opened as a new case, one
request was invalid, and two requests were completed and closed. One of the completed requests
took 399 work days to process, and the other request took 2 work days. An additional two cases
have gone into litigation, which leaves 18 Keystone XL FOIA cases open.

         As of January 30, 2012, the 18 open cases had been in process an average of 164 work
days, with half of these open cases having been in process for less than 125 work days. These
cases are within the Department’s average complex case processing time for 2010,33 which is
284 days. In 2010, the fastest processed complex case was 21 days, and the longest case had
been pending 2,162 days. These 18 cases are in various stages of processing, including releasing
the first segment to the requestor, awaiting release to the requestor pending review, and tasking
the request to various bureaus and offices for records.

       IPS has three branches under its Research Division, and each branch has 12 analysts.
Analysts process from 250 to 300 cases a year. In 2010, the Department received 30,206 FOIA
requests. In its search of electronic records of officials involved with Keystone XL, OIG
generated 31,212 records pertaining to Keystone XL. Of the 28 total Keystone XL FOIA
requests, OIG found that in the majority of the cases, the requestor was informed that unusual
circumstances may arise that would require additional time to process the request.

Conclusion

      The Department has not made a final determination on any of the Keystone XL-related
FOIA requests within the baseline statutory requirement of 20 days. OIG determined that the
Department processed the FOIA requests related to Keystone XL as timely as or faster than
comparable non-Keystone XL requests.




33
 Data on the Department’s average complex FOIA case processing time and total FOIA requests received for 2010
was provided by the U.S. Department of Justice–Freedom of Information Act Web site at <www.FOIA.gov.>

                                                 38
                                            UNCLASSIFIED
                                       UNCLASSIFIED



                                List of Recommendations 

Recommendation 1. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, in coordination with the Bureau of Administration and the
Office of the Legal Adviser, redesign the Department of State process for selecting third-party
contractors by maximizing the Department’s control of each step and minimizing the applicants’
role in the process.

Recommendation 2. OIG recommends that the Department of State fill at least one full-time
Civil Service position within the Bureau of Oceans and International Environmental and
Scientific Affairs with staff who have experience and expertise in handling National
Environmental Policy Act issues and the environmental impact statement process.

Recommendation 3. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, in coordination with the Bureau of Administration and the
Office of the Legal Adviser, redesign the Department of State process for selecting and using
third-party contractors in order to improve the Department’s organizational conflict of interest
screening process.




                                            39
                                       UNCLASSIFIED
                                       UNCLASSIFIED



                                                                                     Appendix A
                                 Scope and Methodology

        The Office of Inspector General (OIG) conducted a special review of the Department of
State’s (Department) handling of the environmental impact statement (EIS) and national interest
determination for TransCanada Corporation’s proposed Keystone XL pipeline in response to a
request from several members of Congress (see Appendix B). OIG conducted this review to
determine to what extent the Department and all other parties involved complied with Federal
laws and regulations relating to the Keystone XL pipeline permit process. OIG conducted
fieldwork for this review from November 2011 to January 2012 in the Washington, DC,
metropolitan area.

       To obtain background and criteria for the review, OIG researched and reviewed
documentation that related to the Presidential permit and EIS processes, such as the Keystone
XL permit application, the Department’s EIS for Keystone XL, and the Federal Energy
Regulatory Commission’s “Handbook for Using Third-Party Contractors to Prepare
Environmental Documents for Natural Gas Facilities and Hydropower Projects.” OIG also
reviewed relevant laws and regulations that apply to the national interest determination and EIS
processes, such as Executive Order 13337, the National Environmental Policy Act of 1969
(NEPA), the Council on Environmental Quality and Department regulations for implementing
NEPA, and Pipeline and Hazardous Materials Safety Administration regulations for issuing or
modifying special permits for U.S. oil pipelines. Additionally, OIG reviewed Freedom of
Information Act (FOIA) regulations.

        To address several of the questions by Congress, OIG interviewed and reviewed
documentation from Department officials in the Bureau of Oceans and International
Environmental and Scientific Affairs; the Bureau of Economic, Energy and Business Affairs;
and the Office of the Legal Adviser. OIG also reviewed relevant Federal Register notices by the
Department and briefing memoranda, meeting notes, cables, and correspondence between the
Department and other entities that related to the Keystone XL permit. In addition, OIG
interviewed officials from Embassy Ottawa to gain an understanding of the communications that
took place between the Department, TransCanada, and the Canadian Government regarding
Keystone XL in the permit process.

        OIG interviewed and analyzed financial and contractual documentation for Cardno Entrix
and TransCanada officials to determine whether there were any contractual or financial
relationships between these two entities beyond Keystone XL. In addition, OIG interviewed and
obtained documentation from officials in other Federal agencies, including the Environmental
Protection Agency, the Department of Energy, the Department of the Interior, and the
Department of Transportation. OIG also analyzed the 281 Federal agency comments for the
Department’s draft EIS and the Department’s responses to each comment that were included in
an appendix to the final EIS. OIG used this information to identify the extent to which the
Department incorporated the views and concerns of the other agencies in its final EIS. OIG used
information from the Department of Transportation, specifically, to identify what role the
Department played, if any, in the decision by TransCanada to withdraw its special permit request
for Keystone XL.

                                            40
                                       UNCLASSIFIED
                                      UNCLASSIFIED




       To determine whether the Department fulfilled FOIA requests for materials related to
Keystone XL in a timely manner, OIG reviewed records from the Bureau of Administration,
Global Information Services, Office of Information Programs and Services. In reviewing these
documents, OIG checked all 28 FOIA requests related to Keystone XL and determined whether
the Department addressed them in accordance with FOIA regulations.

       As part of this review, the OIG team reviewed Department electronic records, including
the contents of email mailboxes and network files for Department officials involved with
Keystone XL. The OIG team utilized software to conduct keyword searches and identify
relevant records.




                                           41
                                      UNCLASSIFIED
                                  UNCLASSIFIED
                                                                                               Appendix B


                      (Congress of tile 11nitell stutes
                                 10651,ing101l, DC!: 2mil5



                                     October 26, 20 I I


The Honorable Harold W. Geisel
Office of Inspector General
United States Departmen t of State
220 1 C Street, NW
Washington, D.C. 20520

Dear Deputy Inspector General Geisel:

We arc writing to request that the Office of lnspector General at the U. S. Department of
State launch an investigation into the State Department's handling of the Environmental
Impact Statement (EIS) and National Lnterest Determination (NlD) for TransCanada
Corporation's proposed Keystone XL pipeline. Given the significant economic,
environmental, and publ ic health impl ications of the proposed pipeline, we believe that it
is critical that the State Department conduct thorough, unbiased reviews of the project.
Further, it is imperati ve that the State Department process be free of actual or apparent
conflicts of interest, and that the process fully meets both the letter and spirit of all
federal laws, including but not limited to the National Environmental Policy Act.

We arc disturbed by reports, such as those in The New York Times on October 7, 2011 ,
lhallhe State Department allowed TransCanada, the pipeline developer, to screen
applicants to conduct the EIS mandated by fed eral law. The reports also allege that
TransCanada successfully recommended the State Department select Cardno Entrix to
conduct the EI S, despite Cardno Entrix li sting TransCanada as a "major client" and
Cardno Entrix having a pre-existing financial rel ati onship with TransCanada. On its face
alone, this creates an appearance of a connict ofinterest and rai ses several questions:

   •   Did TransCanada improperly influence the State Department's selection of a
       contractor for the EIS?
   •   Did the State Department and all parties fu lly comply with the letter and spirit of
       all federal disclosure laws and regulations in regards to the Keystone XL pipeline
       project?
   •   Is Cardno Entrix 's contract for the EI S and Keystone XL pipeline analysis with
       the State Department or with TransCanada, and has this contract been publicly
       disclosed? Does Cardno Entrix havc a contract or agreement with TransCanada
       wherein Card no Entri x would provide se rvi ces, s uch as spill response, for the
       Keysto ne XL pipeline ifit is approved?
   •   What is the nature and extent of any other contractual or fin ancial rel ationship
       between Cardno Entrix and TransCanada?




                                       42
                                  UNCLASSIFIED
                                   UNCLASSIFIED


                                                                             Page Two
                                                        The Honorable Harold W. Geisel




We also ask that your inquiry examine the full scope of the State Department process
related to the EIS and NID for the Keystone XL pipeline. The public has a right to
answers to the following questions that have been raised about this process:

   •   Did the State Department's Final EIS fully incorporate the views and concerns of
       federal agencies with expertise, such as EPA, in relation to central questions of
       alternatives and mitigation, pipeline safety, and environmental risks from this
       project, including:
            o fully considering whether the oi l from Keystone XL will stay in the
                United States or be exported,
            o evaluating a tar sands oil spill in the Kalamazoo river with a cleanup cost
                that has increased from $430 million in 20 JO to $700 million today,
            o assessing the exacerbation of climate change due to increased greenhouse
                gas emissions from increased exploitation of tar sands oil?
   •   Were there any communications between State Department officials and
       TransCanada, the Canadian government, or proponents of the pipeline, which
       were in any way improper or which indicate any deviation from the State
       Deparunent' s obligations under federal law to provide objective analysis of the
       project and its potential risks?
   •   Did the State Department or any of its officials or employees, past or current,
       improperly disclose any materials or infornlation to TransCanada, the Canadian
       government, or proponents of the pipeline?
   •   Have all requests for materials related to the Keystone XL pipeline under the
       Freedom of Infonn ation Act been timely fulfilled so that the public has access to
       all the necessary documents and materials related to thi s project?
   •   Did the State Department violate its role as an unbiased oversight agency by
       advising TransCanada to withdraw their pennit request to operate the pipe line at
       highcr pressures with the reassurance that TransCanada could apply for the pennit
       at a later date through a less scrutinized and less transparent process?

We believe that given the importance of this project and the controversy regarding the
State Departmcnt's process to-date, a thorough investigation covering the questions we
have raised, and any other possible violations of federal law or improper conduct related
to the State Department EIS and NTD process for the Keystone XL pipeline, is warranted.
We greatly appreciate your assistance with this imponant mat1er, and look forward to
your response.


                                     Sincerely.



BERNARD SANDERS
United States Senator
                                                    ~tcL~
                                                    Member of Congress




                                        43
                                   UNCLASSIFIED
                        UNCLASSIFIED



                                                            Page Three
                                        The Honorable Harold W. Geisel




                               PETER WELCH
                               Member of Congress


                                tJBtM'~
                               EARL BLUMENAUER
United States Senator          Member of Congress


                             ttR~ ~ 02
                               CHELLIEING REE
                               Member of Congress

                              +j( . ~
                               MAZLE K. HIRONO
                               Member of Congress




                              ii:C
                                ) \ JOHNSbN
                               Mem r of Congress



                               MICHAEL M. HONDA
                               Member of Congress


                             1 . . y 4dc.. ~ <1::'''"-- e.R..
                             -~~-:
                               DENNIS J. C    INICH
                                Member of Congress




                             44
                        UNCLASSIFIED
UNCLASSIFIED



                                    Page Four
                The Honorable Harold W. Geisel



       11Ii'&0i{ft1/
       Member of Congress




     45
UNCLASSIFIED
                                    UNCLASSIFIED


                                                                                  Appendix C
             Consultation and Permit Requirements With
 Some Cooperating Federal Agencies for the Proposed Keystone XL Project

                                   Permit or
  Federal Agency           Consultation/Authority              Federal Agency Action
Department of State   Presidential Permit, Executive      Considers approval of cross-
                      Order 13337 of April 30, 2004 (69   border facilities.
                      Federal Register 25299, et seq.)
                      National Environmental Policy       Is lead Federal agency for the
                      Act                                 environmental review of major
                                                          projects considered for
                                                          Presidential permits that require
                                                          an EIS.
                      Section 106 of the National         Supervises and coordinates
                      Historic Preservation Act           compliance with the National
                                                          Historic Preservation Act and
                                                          consults with interested Tribal
                                                          agencies.
                      Section 7 of the Endangered         Consults with Department of the
                      Species Act                         Interior’s U.S. Fish and Wildlife
                                                          Service regarding federally listed
                                                          or proposed species.
Bureau of Land        Right-of-way (ROW) grants and       Considers approval of ROW grant
Management            short-term ROWs under the           and temporary use permits for the
                      Federal Land Policy and             portions of the proposed project
                      Management Act of 1976 as           that would encroach on public
                      amended and Temporary Use           lands.
                      Permit under Section 28 of the
                      Mineral Leasing Act
                      Archeological Resources             Considers issuance of cultural
                      Protection Act Permit               resource use permit to survey,
                                                          excavate, or remove cultural
                                                          resources on Federal lands.
                      Notice to Proceed                   Considers, following issuance of a
                                                          ROW grant and approval of the
                                                          proposed project’s Plan of
                                                          Development, issuance of a
                                                          Notice to Proceed with project
                                                          development and mitigation
                                                          activities for Federal lands.
U.S. Army Corps of    Section 404, Clean Water Act        Considers issuance of Section 404
Engineers                                                 permits for the placement of
                                                          dredge or fill material in waters of
                                                          the United States, including

                                         46
                                    UNCLASSIFIED
                                      UNCLASSIFIED



                                                          wetlands.
                        Section 10 Permit (Rivers and     Considers issuance of Section 10
                        Harbors Act of 1899)              permits for pipeline crossings of
                                                          navigable waters.
U.S. Fish and           Endangered Species Act, Section   Considers lead agency findings of
Wildlife Service        7, Consultation, Biological       an impact of federally listed or
                        Opinion                           federally proposed species;
                                                          provides a Biological Opinion if
                                                          the proposed project is likely to
                                                          adversely affect federally listed or
                                                          federally proposed species or their
                                                          habitats.
U.S. Bureau of          ROW Grant and Temporary Use       Determines whether ROW grant
Reclamation             Permit under Section 28 of the    issued is in compliance with this
                        Mineral Leasing Act               agency’s standards.
Federal Highway         Crossing Permit                   Considers issuance of permits for
Administration                                            the crossing of federally funded
                                                          highways
U.S. Department of    49 CFR Part 195 – Transportation    Reviews design, construction,
Transportation,       of Hazardous Liquids by Pipeline    operations, maintenance, and
Pipeline and                                              emergency operations plan;
Hazardous Materials                                       inspects pipeline projects,
Safety Administration                                     including Integrity Management
                                                          Programs; and identifies high-
                                                          consequence areas prior to
                                                          installation of pipeline.
                        49 CFR Part 194 – Response         Reviews response plans prior to
                        Plans for Onshore Pipelines       initiation of operation and, within
                                                          2 years of startup, approves the
                                                          plan.
U.S. Environmental      Section 401, Clean Water Act,     Considers approval of water use
Protection Agency       Water Quality Certification       and crossing permits for non-
                                                          jurisdictional waters.
                        Section 402, Clean Water Act,     Reviews and issues NPDES
                        National Pollutant Discharge      permit for the discharge of
                        Elimination System (NPDES)        hydrostatic test water.
Advisory Council on     Section 106 Consultation          Advises Federal agencies during
Historic Preservation                                     the Section 106 consultation
                                                          process and is signator to the
                                                          Programmatic Agreement.




                                           47
                                      UNCLASSIFIED
                                    UNCLASSIFIED


                                                                                Appendix D

       Department Fulfillment of Freedom of Information Act Requests
 Date of Request     Organization
  Received by         Requesting               Summary of Information Requested
  Department         Information
 March 20, 2009     Non-Profit       All records concerning the Department of State
                    Organization     (Department) Regulations for Implementation of the
                                     National Environmental Policy Act (NEPA). All records
                                     concerning the Department "Fact Sheet" entitled Applying
                                     for Presidential Permits for Border Crossing Facilities
                                     (Canada) (Fact Sheet). All records regarding, discussing,
                                     or mentioning Department procedures for processing
                                     Presidential Permit applications for the construction,
                                     operation, and/or maintenance of pipeline facilities on the
                                     United States-Canada border. All records concerning the
                                     Presidential Permit applications of TransCanada for its
                                     "Keystone I," Keystone XL," and "Alberta Clipper"
                                     pipeline projects.
 August 25, 2009    Law Office       The names and addresses of all landowners over whose
                                     property Keystone XL would cross (received via fax).
September 1, 2009   Law Office       Duplicate request (received via mail) for the names and
                                     addresses of all landowners over whose property
                                     Keystone XL would cross.
September 15, 2010 Non-Profit        All inter-agency communication regarding NEPA,
                   Organization      including all comments on the Keystone XL Draft
                                     Environmental Impact Statement (EIS) submitted by
                                     consulted Federal and State agencies, all comments
                                     submitted at the hearings on the Keystone XL draft EIS,
                                     and all correspondence within the Department and
                                     between other agencies regarding the EIS.
November 18, 2010   Non-Profit       All records relating to communications between the
                    Organization     Department and TransCanada from November 2009, to
                                     present.
December 6, 2010    Non-Profit       All records regarding, discussing, or mentioning
                    Organization     Department procedures for processing Presidential Permit
                                     applications for the construction, operation, and/or
                                     maintenance of pipeline facilities on the United States-
                                     Canada border, including, but not limited to, any
                                     standards, guidance documents, or statements of policy or
                                     procedure used in determining whether a proposed project
                                     serves the national interest and whether a Presidential
                                     permit should be granted.
December 13, 2010   Non-Profit       Copies of documents and information regarding all
                    Organization     Department communications involving the Department


                                         48
                                    UNCLASSIFIED
                                    UNCLASSIFIED



                                     and lobbyist of TransCanada (received via fax).
December 22, 2010   Non-Profit       Duplicate request (received via mail) for copies of
                    Organization     documents and information regarding all Department
                                     communications involving the Department and lobbyist of
                                     TransCanada.
 January 13, 2011   Media            All correspondence (including electronic) since June 1,
                                     2010, between the Department and Canadian and
                                     American elected officials and bureaucrats and the
                                     corporate sector regarding Keystone XL.
 February 7, 2011   Media            Copies of documents and information regarding all
                                     Department communications involving the Department
                                     and lobbyist of TransCanada from January 1, 2009, to
                                     present.

 February 7, 2011   Media            Any and all records of communications, contacts, or
                                     correspondence between the Department and lobbyist of
                                     TransCanada, regarding the Keystone XL.
 March 23, 2011     Environmental    All records in the possession or control of the Department
                    Non-             reflecting communications between the Department and
                    Governmental     TransCanada, the Pipeline and Hazardous Safety
                    Organization     Administration, the Alberta Energy Resources
                                     Conservation Board, and the Canadian National Energy
                                     Board regarding Keystone XL.
  April 27, 2011    Media            All correspondence to and from representatives of
                                     Hyperion Resources of Dallas, Texas, concerning the
                                     possibility or feasibility of building a dedicated pipeline
                                     from oil sands fields in Canada to the site of a proposed
                                     petroleum refinery in Union County, South Dakota.
  May 31, 2011      Media            Any and all correspondence between representatives of
                                     Koch Industries or its subsidiaries and the Department
                                     relating to the construction and permitting of any portion
                                     of the Keystone pipeline system.
   June 1, 2011     Media            All records in the control of the Department concerning
                                     President Permits granted by the Department pursuant to
                                     Executive Order 11423 or any amending Executive Order,
                                     for the pipeline facilities on the United States-Canada
                                     border.
   June 3, 2011     Media            Documents about contacts between Department officials
                                     and lobbyists for TransCanada, the government of
                                     Alberta, the Canadian-American Business Council and
                                     Nexen Corporation regarding Keystone XL.
 August 1, 2011     Democratic       Documents involving direct correspondence between the
                    Senatorial       Department and Keystone representatives and officials
                    Campaign         from the House of Representatives and contracts with law
                    Committee        firms.
 August 8, 2011     Media            Access to and copies of any correspondence between the

                                         49
                                    UNCLASSIFIED
                                    UNCLASSIFIED



                                     State of Nebraska and the Department over the past five
                                     years related to the proposed Keystone XL.
September 23, 2011 Educational       All of the Geographic Information Systems data that were
                   Noncommercial     used in the maps depicted in the Final EIS for the
                   Scientific        Keystone XL.
                   Institution
September 30, 2011 Educational       Public testimonies given by Nebraskans pertaining to two
                   Noncommercial     Keystone pipeline projects in Nebraska: (1) Keystone I
                   Scientific        and (2) the proposed Keystone XL.
                   Institution
 October 3, 2011   Media             All of the Department’s records for all written
                                     correspondence between agency personnel and
                                     environmental non-governmental organizations regarding
                                     Keystone XL.
 October 4, 2011    Media            Access to and copies of the same Keystone XL related
                                     Freedom of Information Act information that has been
                                     requested by and delivered to an environmental non-
                                     governmental organization by the Department.
 October 11, 2011   Individual       An electronic copy on CD-ROM of the Keystone XL
                                     Final EIS.
 October 11, 2011   Educational      All public comments, for Nebraska only, pertaining to the
                    Noncommercial    Keystone I and Keystone XL.
                    Scientific
                    Institution
 October 13, 2011   Non-Profit       All of the Department’s documentation referring to
                    Organization     Presidential permit applications, criteria, and other records
                                     related to Keystone, and all Department correspondence
                                     regarding Keystone (September 19, 2008, to present).
 October 19, 2011   Individual       All records related to the granting of a permit to an
                                     individual for the study, trapping, or relocation of
                                     American burying beetles in Nebraska or South Dakota in
                                     the vicinity of Keystone XL.
 October 28, 2011   Private          All internal emails discussing the permitting of Keystone
                    Corporation      XL.
November 3, 2011    Non-Profit       Any contract(s) or agreement(s) between the Department
                    Organization     and Cardno Entrix (or its predecessor companies) and/or
                                     between TransCanada and Cardno Entrix (or its
                                     predecessor companies) between 2008 and the present
                                     regarding work that Cardno Entrix has or will perform for
                                     Keystone XL under NEPA.




                                         50
                                    UNCLASSIFIED
                               UNCLASSIFIED



                                                                                      Appendix E



                                            United Stlltes De pllrtment of Sta te
                                             Washington,o.c. 20520



UNCLASSIFIED                                               February 3, 2012


MEMORANDUM

TO:         DIG - Harold W. Geisel

                                     Acti~
FROM:       DES - Daniel A. Clune,
            L - Harold Hongju Koh     m
SUBJECT: Special Review of the Keystone XL Pipeline Pennit Process

We have reviewed the Draft Report on the Special Review of the Keystone XL
Pipeline Pennit Process (Report) prepared by the Office ofInspector General. We
have been pleased to work with the DIG in providing documents and infonnation
in support of the preparation of the report. We also commend the DIG for the
thorough, efficient, and professional manner in which it has conducted the Special
Review.

Our responses to the three recommendations in the report are as follows:

Recommendation l. DIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, in coordination with the Bureau
of Administration and the Office of the Legal Adviser, redesign the Department of
State Process for using third-party contractors by maximizing the Department's
control of each step and minimizing the applicants' role in the process.

      Response. We agree with this recommendation. Before retaining a third­
      party contractor for any future work, the Department will redesign the
      process for using third-party contractors in the preparation of environmental
      documents in accordance with this recommendation. The Department
      intends to seek input from other agencies in the federal government with
      wide-ranging NEPA implementation experience.

Recommendation 2. OIG recommends that the Department of State fill at least
on full-time Civil Service position within the Bureau of Oceans and International
Environmental and Scientific Affairs with staff who have experience and expertise




                                    51 

                               UNCLASSIFIED
                                UNCLASSIFIED





                                         2


in handling National Environmental Policy Act issues and the environmental
impact statement process.

      Response. We agree with this recommendation. As noted in the Report,
      the Department has developed and is in the process of filling a full -time
      Civil Service position with the Bureau of Oceans and International
      Environmental and Scientific Affairs for handling the NEPA process and
      managing NEPA third-party contracts. The public posting for this position
      closed on February 3, 2012.

Recommendation 3. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, in coordination with the Bureau
of Administration and the Office of the Legal Adviser, redesign the Department of
State process for using third-party contractors in order to improve the
Department's organizational conflict of interest screening process.

      Response. We agree with this recommendation. As part of the effort to
      redesign the process for using third-party contractors in the preparation of
      environmental.documents, the Department will develop measures that will
      provide for additional verification of potential organizational conflicts of
      interest between prospective third-party contractors and the applicant for a
      Presidential permit.




                                     52 

                                UNCLASSIFIED

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

